                    United States Department of Justice
                         Office of the Inspector General
                                           Audit Division




  AUDIT REPORT



   IMMIGRATION AND
NATURALIZATION SERVICE’S
  PREMIUM PROCESSING
       PROGRAM




    FEBRUARY 2003

         03-14
              IMMIGRATION AND NATURALIZATION SERVICE’S
                    PREMIUM PROCESSING PROGRAM

                                EXECUTIVE SUMMARY

      The Office of the Inspector General, Audit Division, has completed an
audit of the Immigration and Naturalization Service’s (INS) Premium
Processing program. The Premium Processing program was established in
June 2001 to allow for the payment of a service fee for expedited processing
of certain employment-based applications. The INS guarantees processing
of premium petitions within 15 calendar days for the basic application fee
($130) and an additional service fee of $1,000. According to the regulation
that established the Premium Processing program and INS’s internal budget
documents, the INS will use Premium Processing revenue to hire additional
adjudicators, contact representatives, and support personnel to provide
service to all its customers and to improve the infrastructure so as to reduce
backlogs for all types of petitions and applications. Currently, only the Form
I-129, Petition for Non-Immigrant Worker, is eligible for the Premium
Processing program.

      The audit focused on determining if: (1) the INS was achieving the
program goals for the expedited processing of employment-based petitions
and applications; (2) the processing times for similar routine petitions and
applications changed significantly after the implementation of the Premium
Processing program; and (3) the implementation of the mandated
Interagency Border Inspection System (IBIS) check procedures impacted the
Premium Processing service.1

       Our audit examined the Premium Processing program for the period
from June 2001 through October 2002. We reviewed Premium Processing
activities at the INS Headquarters in Washington D.C., and at the INS’s four
service centers: St. Albans, Vermont; Dallas, Texas; Laguna Niguel,
California; and Lincoln, Nebraska.

I. Summary of Audit Findings

       Although we found that the INS is essentially meeting its 15-day
processing requirement for premium petitions, we identified the following
deficiencies in the Premium Processing program:


      1
          IBIS is a shared multi-agency database of lookout information on individuals.




                                             -i-
     •   The Premium Processing program has adversely affected the time
         required to adjudicate routine applications and petitions.
         Consequently, more applicants are paying the $1,000 Premium
         Processing fee to assure adjudication within 15 calendar days. The
         mandate to adjudicate premium applications within 15 days has
         contributed in part to the increased backlog of routine petitions at
         the service centers. The backlog has steadily increased since the
         second quarter of fiscal year (FY) 2002, reaching 3.2 million in
         September 2002. Thus, a program whose purpose was ultimately
         to reduce or eliminate adjudications backlogs may be having the
         unintended consequence of increasing at least some of those
         backlogs.

     •   The INS service centers failed to institute IBIS checks in a timely
         manner. The INS had mandated IBIS checks on all petitions on
         January 28, 2002, but, due to a breakdown in communications
         between INS Headquarters and the field, the service centers did not
         institute IBIS checks for all petitions until March 2002. As a result,
         11,830 Premium Processing petitions were adjudicated without IBIS
         checks between January 28, 2002, and March 18, 2002. In the
         absence of IBIS checks, the INS cannot be certain that applications
         from high-risk individuals were not approved.

     •   Program analysis of Premium Processing has been weak. The INS
         maintains statistical databases to track all types of adjudications,
         staff, and supervisory hours, but Premium Processing is not
         separately identified in these databases or others used for
         supporting budget requests, position allocations, and general
         analysis. Consequently, the INS lacks reliable data about the
         Premium Processing workload and the resources it requires.

     •   To date, the INS has not conducted a formal analysis of the
         Premium Processing service fee or the unit processing cost.
         Premium Processing generated revenue of more than $115 million
         in FY 2002. Yet, without program analyses, the INS cannot
         determine whether staff and resources are appropriately allocated
         to the service centers for adjudication of Premium Processing
         applications.

II. Background

      Premium Processing applications are adjudicated in the INS service
centers located in St. Albans, Vermont (VSC); Dallas, Texas (TSC); Laguna
Niguel, California (CSC); and Lincoln, Nebraska (NSC). Currently, only the
Form I-129, Petition for a Nonimmigrant Worker, is available for the

                                     - ii -
premium service. However, the program is expected to expand in 2003 to
include the Form I-140, Immigrant Petition for Alien Worker. To date, the
program has generated over $136 million in revenue as shown in the table
below.


          PREMIUM PROCESSING REVENUE BY SERVICE CENTER
                   (IN THOUSANDS OF DOLLARS)
                             VSC          TSC        CSC        NSC      All Centers
  FY 2001                $  7,366     $ 4,986        $  5,266 $ 3,764       $ 21,382
  FY 2002                  40,765      29,946          25,475 18,848         115,034
  Program Total          $48,131     $34,932         $30,741 $22,612       $136,416
      Source: INS Information Services Division



     An additional $100 million in annual revenue is expected once the
Form I-140 is eligible for Premium Processing.

III. Implementation of IBIS Checks

        IBIS was established in 1989 to provide a shared multi-agency
database of lookout information to improve border enforcement and
facilitate inspection of individuals applying for admission to the United States
at ports of entry and pre-inspection facilities. Twenty-seven agencies
contribute data to IBIS, including the INS, the Federal Bureau of
Investigation, the United States Customs Service, and the United States
Departments of State and Agriculture.

      The data entered into IBIS by the participating agencies include
lookouts, wants, warrants, arrests, and convictions. IBIS contains lookouts
for suspected or known terrorists and information on individuals who may
pose a threat to national security.

     Installation of IBIS hardware and software in the service centers was
completed in August 2001, but the INS did not mandate IBIS checks until
November 15, 2001. On that date the INS required IBIS checks for four
categories of applications.2 The mandate was expanded on January 28,

      2
        The four applications included the: Form I-485, Application to Register Permanent
Residence or to Adjust Status; Form I-90, Application to Replace Permanent Residence
Card; Form I-821, Application for Temporary Protected Status; and Form I-765, Application
for Employment Authorization.




                                           - iii -
2002, to include all INS petitions and applications. However, as discussed in
Finding I of this report, the service centers did not institute IBIS checks on
all petitions until March 18, 2002, due to a lapse in communication between
INS Headquarters and the field. INS officials informed us that the service
centers were unaware of the January mandate until being verbally informed
of it in March 2002.

      We determined that between January 28, 2002, and March 18, 2002,
the INS service centers adjudicated 387,596 petitions, including 11,830
Premium Processing petitions, without performing IBIS checks. It is
unknown how many of the 387,596 beneficiaries of those petitions may have
posed a threat to national security.

IV. Management Oversight

       The Premium Processing program has had inadequate oversight from
management at both the national and service center levels. For example,
workload data on Premium Processing have not been incorporated into the
INS’s work measurement systems. INS officials maintain that because
Premium Processing is intended to be a temporary program that will phase
itself out as backlogs diminish, it is unnecessary to include it in general
statistical and program analyses. We disagree. With over $136 million in
receipts to date, Premium Processing is clearly in need of active managerial
scrutiny.

      Because Premium Processing is exceeding initial revenue projections of
$80 million per year, we consider a unit cost analysis important for
determining whether staff and resources have been adequately allocated to
the service centers. Similarly, a fee analysis should be conducted to
examine the appropriateness of the $1,000 premium.

V. Conclusion and Recommendations

      Although the immediate goal of Premium Processing is to expedite
premium petitions, the long-term objective is to reduce or eliminate
backlogs in the INS’s total adjudications workload. In our judgment, the INS
must bring about greater efficiency in both the Premium Processing and the
general adjudications programs to reach this objective. Accordingly, the INS
must develop adequate information about the resources that Premium
Processing requires.

       In this report we make five recommendations of actions the INS can
take to improve oversight of the Premium Processing program and ensure
that individuals whose petitions have been approved do not fall within the


                                    - iv -
five high-risk categories established by the INS.3 In brief, we recommend
that the INS:

       •   Strengthen internal communications to assure that service centers
           and district offices are aware of policy and/or procedural changes
           that will affect the adjudication of applications and petitions before
           those changes are implemented.

       •   Ensure that an appropriate portion of Premium Processing revenues
           is used to reduce the INS’s adjudications backlog.

       •   Employ the INS’s nationwide work measurement system to collect
           management information about the Premium Processing program.

       •   Conduct a formal study to determine the unit costs for processing
           premium cases and to assign adequate staff and other resources to
           meet the needs of the program.

       •   Conduct a formal analysis of the $1,000 premium to ensure that
           revenues are allocated as required by law.

      Our audit objectives, scope, and methodology appear in Appendix I.
The details of our work are contained in the Findings and Recommendations
section of this report.4




       3
         The five high-risk categories are suspected terrorist, potential threat to national
security, active want or warrant, aggravated felon, or prior deportation.
       4
         As part of our audit process, we asked INS headquarters to furnish us with a signed
management representation letter containing assurances that our staff were provided with
all necessary documents and that no irregularities exist that we were not informed about.
As of the date of issuance of this report, the INS has declined to sign the letter. Therefore,
our findings are qualified to the extent that we may not have been provided with all relevant
information by INS management.



                                             -v-
                                  TABLE OF CONTENTS


                                                                                            Page

INTRODUCTION .................................................................................. 1

       Background................................................................................ 1
       Legislative History....................................................................... 1
       Premium Processing Program Revenue Projections .......................... 3
       Service Center Processing ............................................................ 5
       Interagency Border Inspection System (IBIS) ................................. 9

FINDINGS AND RECOMMENDATIONS ................................................... 12

I.     INTERAGENCY BORDER INSPECTION SYSTEM (IBIS) CHECKS ......... 12

       History of Background Checks at the INS ..................................... 13
       IBIS Check Process ................................................................... 13
       Recommendation ...................................................................... 16

II.    STATUS OF PREMIUM PROCESSING............................................. 17

       Backlog Reduction..................................................................... 17
       Effect of IBIS on Processing Times .............................................. 18
       Recommendation ...................................................................... 21

III.   INS MANAGEMENT OVERSIGHT................................................... 22

       Premium Processing Statistical Data ............................................ 22
       Time and Motion Study .............................................................. 23
       Processing Cost Analysis ............................................................ 25
       Premium Processing Program Fee Analysis ................................... 26
       Service Centers Differ in their Methodologies for Program
         Management and Processing Procedures ................................... 26
       Recommendations..................................................................... 30


OTHER REPORTABLE MATTER ............................................................. 31

STATEMENT ON MANAGEMENT CONTROLS ........................................... 32

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ............... 33
APPENDICES:

I.     – AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY ...................... 34

II.    – PREMIUM PROCESSING RECEIPT DATA ..................................... 37

III.   – PREMIUM PROCESSING RECEIPTS BY SERVICE CENTER .............. 43

IV.    – SERVICE CENTER AREAS OF RESPONSIBILITY............................ 44

V.     – IBIS POLICY TIMELINE……….. ................................................... 45

VI.    – SUMMARY OF SERVICE CENTER OPERATIONS TEAM (SCOT)
           SUPPORT SERVICES CONTRACT............................................ 48

VII.   – SERVICE CENTER PROCESS FOR IBIS RECORD CHECKS .............. 51

VIII. – SIGNIFICANT INCIDENT REPORT.............................................. 53

IX.    – ADJUDICATORS FIELD MANUAL................................................ 54

X.     – FORM I-129, PETITION FOR A NONIMMIGRANT WORKER ............. 58

XI.    – FORM I-907, REQUEST FOR PREMIUM PROCESSING SERVICE ...... 60

XII.   – FORM I-140, IMMIGRANT PETITION FOR ALIEN WORKER............. 61

XIII. – INS RESPONSE TO THE DRAFT REPORT..................................... 64

XIV. – OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION,
         ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
         CLOSE THE REPORT ............................................................ 74
             IMMIGRATION AND NATURALIZATION SERVICE
                  PREMIUM PROCESSING PROGRAM

                                 INTRODUCTION

       The Immigration and Naturalization Service (INS) administers the
nation’s immigration laws, and has both enforcement and benefit service
responsibilities. The two objectives identified by the INS for providing
benefit services are to adjudicate all immigration cases promptly and
impartially in accordance with due process and to provide timely and
consistent services and achieve a substantial reduction in the benefits
processing backlog. According to the regulation that established the
Premium Processing program and INS internal budget documents, the
purpose of the Premium Processing program is to allow the payment of a
$1,000 premium to assure expedited processing (within 15 calendar days) of
certain employment-based visas,5 and to generate revenue that will be used
for infrastructure improvements to reduce backlogs for all types of petitions
and applications.

Background

       The premium service was conceived in 1999 when increasing pressure
from Congress and private industry, mainly technology firms, was placed on
the INS to expedite the processing of employment-based applications. In its
Fiscal Year (FY) 2000 Conference Report, Congress mandated that the INS
process certain employment-based applications within 30 days. According to
INS officials, such a mandate would have had detrimental effects on
adjudication efforts for other applications. In response, the INS sought to
develop a program that would provide businesses with the services they
needed without compromising other adjudications. The INS began working
with the Department of Justice, the Office of Management and Budget, and
various private and non-profit organizations to develop a program that
would allow businesses to pay a premium for expedited processing of certain
petitions.

Legislative History

     On December 21, 2000, the President signed an amendment to the
Immigration and Nationality Act (Act), which added the following new
subsection:


      5
        The premium processing program to date has been available only for the
Form I-129, Petition for a Nonimmigrant Worker. A nonimmigrant worker is an alien who
comes to the United States temporarily to perform services or labor.

                                        -1-
       The Attorney General is authorized to establish and collect a
       premium fee for employment-based petitions and applications.
       This fee shall be used to provide certain premium-processing
       services to business customers, and to make infrastructure
       improvements in the adjudications and customer service
       process. For approval of the benefit applied for, the
       petitioner/applicant must meet the legal criteria for such benefit.
       This fee shall be set at $1,000, shall be paid in addition to any
       normal petition/application fee that may be applicable, and shall
       be deposited as offsetting collections in the Immigration
       Examinations Fee Account. The Attorney General may adjust
       this fee according to the Consumer Price Index.

      The amendment did not explicitly define “Premium Processing”;
therefore, the INS used its authority under Section 103(a) of the Act to
establish the details of this new service, such as the processing timeframe
and the Standard Operating Procedures.

        The INS published an interim rule in the Federal Register, Volume 66,
No. 106, on June 1, 2001, establishing Premium Processing for
employment–based petitions and applications. The interim rule states that
Premium Processing will enable the INS to expedite its services to those
business customers who must sometimes recruit and hire foreign workers to
fill jobs in short timeframes. The interim rule also states that the INS will
use Premium Processing revenue to hire additional adjudicators, contact
representatives, and support personnel to provide service to all its
customers. The fee is also be used for infrastructure improvements.6

      The INS designated Form I-129, Petition for a Nonimmigrant Worker,
as the application form eligible for Premium Processing. The classifications
within the Form I-129 eligible for the premium service as of June 1, 2001
were:

       1.   E-1, Treaty Trader;
       2.   E-2, Treaty Investor;


       6
          The INS’s FY 2001 Immigration Examinations Fee Account budget states that
backlog reduction will be achieved through systems and infrastructure improvements. In
addition, $55 million in Premium Processing revenue will be used for such purposes. The
Immigration Services Division’s FY 2001 budget for Business and Premium Enhancements
states that the $55 million in additional revenue not required to support adjudication and
quality initiatives will be earmarked to fund backlog reduction efforts at service centers and
district offices; complete the deployment of CLAIMS 4 for citizenship applications; and
replace the older CLAIMS 3 adjudications system at the service centers.


                                           -2-
       3.   H-2A, Agricultural Worker;7
       4.   H-2B, Temporary Worker;
       5.   H-3, Trainee;
       6.   L-1, Intra-company Transferee;
       7.   O-1 and O-2, Aliens of Extraordinary Ability or Achievement;
       8.   P-1, P-2, and P-3, Athletes and Entertainers; and
       9.   Q-1, International Cultural Exchange Aliens.

     Additional classifications within the Form I-129 eligible for the
premium service as of July 30, 2001 were:

       10. H-1B, Temporary Worker with Specialty Occupation;
       11. R-1, Temporary Worker in Religious Occupation; and
       12. TN NAFTA Professional.

      These designations (1, 2, and 4 through 12) will continue until the INS
publishes a notice of amendment or termination.

       The INS estimated that Premium Processing would generate $25
million in revenue in fiscal year 2001 (due to a mid-year implementation
date), and $80 million in revenue in fiscal year 2002.

      In addition to the Act and the interim rule, the following new
requirements were added to 8 CFR Part 103:

       A petitioner or applicant requesting Premium Processing Service
       shall submit Form I-907, Request for Premium Processing
       Service, with the appropriate fee to the Director of the INS
       service center having jurisdiction over the petition or application.
       Premium Processing service guarantees 15-calendar day
       processing of certain employment-based petitions and
       applications. The 15-calendar day processing period begins
       when the INS receives the Form I-907, with the fee, at the
       designated address contained in the instructions to the form.

Premium Processing Program Revenue Projections

      The premium service fees are deposited into the Immigration
Examinations Fee Account (IEFA) along with fees from approximately 33
other routine applications and petitions. During discussions with INS officials
we documented the INS’s initial allocation of its estimated premium service
revenues. In addition, we determined the INS’s methodology for:

       7
        As of June 15, 2001, this classification was no longer eligible for Premium
Processing.

                                          -3-
(1) establishing the revenue projections for routine applications; and
(2) managing the IEFA.

       Of the $80 million in projected fee revenue from Premium Processing,
$17.5 million was allocated by the INS to hire 141 additional adjudicators,
contact representatives, and support personnel to provide service to all INS
customers. An additional $7.5 million was allocated for fraud detection,
which included the hiring of an additional 54 Special Agents and Intelligence
Research Specialists. The remaining $55 million in program revenue was
earmarked for general infrastructure improvements ($35 million) and
additional staffing ($20 million) that would contribute to the overall backlog
reduction efforts. We confirmed that the $25 million was spent to fill the
195 positions described above. However, we could not determine if the $55
million was used for general infrastructure improvements because
disbursements from the IEFA were not tracked by the source of the funds.
Generally, the INS includes its revenue estimates for funding the IEFA as
part of its budget request to Congress. Once the budget is approved the INS
monitors the IEFA only to ensure that on an overall basis disbursements do
not exceed receipts.

       The INS process for projecting routine application fee revenues began
in the early 1990’s with the establishment of a working group (consisting of
representatives from the INS Budget, Statistics, and Adjudications Program
Offices) charged with developing the official agency revenue projections for
the IEFA. This group convenes on a quarterly basis to review and update
previous revenue projections. The group looks at every application and
petition type where a fee is charged, estimates the number of applications
and petitions that will be filed within a given year, and forecasts the
resulting fee revenues. These revenue estimates become the basis for each
new fiscal year budget request to Congress. The budget request submitted
to Congress does not tie specific application revenue estimates to a line item
in the budget, but rather the individual application revenue estimates are
consolidated into a single IEFA revenue estimate.

       Once Congress approves the budget, the INS is not expected to adjust
field operation activity based on the receipt of actual fees by application
type. It is the overall receipt of application and petition revenue that is
monitored to ensure that the receipts match the appropriation level
approved by Congress. The INS can spend only up to the level approved by
Congress. Any revenue received in excess of the congressional
appropriation cannot be spent. A reprogramming request to Congress would
be needed to seek increased spending.

      According to INS officials, in cases where premium service revenues
are identified to have exceeded original budget estimates, the first thing that

                                    -4-
would be evaluated is whether the overall revenue collected matched the
congressional appropriation. If the revenue collected equaled the
appropriation level, this would mean that revenues from routine applications
came in lower than projected, and that higher revenues from premium
processing covered the loss. If this happened, business would continue as
usual and all programs and projects approved in the Examinations Fee
Operating Plan would be pursued. The INS would justify the use of the
additional premium revenue by stating that the funds were used to finance
ongoing premium processing and backlog elimination efforts, albeit at a
higher percentage than originally planned.

       The reverse would be true if premium revenue was less than projected
but revenue from routine applications was higher; the latter revenue would
offset the shortfall in revenues from premium processing. In this case, the
percentage of premium revenue dedicated to the backlog elimination efforts
would be less than planned, and revenue from routine applications would be
used to make up the difference.

       As part of its annual budget request to Congress, the INS establishes
estimates for the various revenue sources that make up the IEFA, such as
fees for routine applications and petitions and for premium services. The
individual revenue estimates are part of the consolidated IEFA revenue
estimate. For expenditure projections, an annual operating plan is utilized to
allocate the total IEFA revenue among the functions of the Information
Services Division. During the year the IEFA is monitored to ensure that the
overall receipts are meeting the appropriate level. The INS does not isolate
premium service and individual application revenues from one another when
determining if sufficient revenue has been collected to match the
congressional appropriation. The fee revenue is consolidated and reported
at the account level, which enables the INS to allocate the funds for field
operations.

Service Center Processing

       The four INS service centers that adjudicate Premium Processing
petitions are: Vermont (VSC), Texas (TSC), California (CSC), and Nebraska
(NSC). Each service center has its own jurisdictional and geographical
responsibilities (see Appendix IV for areas of responsibility for each service
center).




                                    -5-
       Premium Processing petitions are expedited through the adjudications
process from the time they reach the service centers.8 Premium petitions
are mailed to a separate post office box at each service center, and are
collected and immediately processed through the mailroom and data entry
centers. Mailroom staff check to ensure that the petition is eligible for
Premium Processing, then gather all application materials and collect the
attached fee payments. Data entry staff enter the petitioner and beneficiary
information into CLAIMS (Computer Linked Application Information System),
assign it an identification number, and place the entire application package
in a color-coded file. The Premium Processing clock starts on the day the
mailroom stamps Form I-907, Request for Premium Processing, as received.

       Depending on the physical layout of the service center, premium
petitions are either hand carried or shuttled to the adjudications staff.9
While the service centers vary in how they receive and process premium
petitions, generally the current procedure is as follows:

       •   As premium petitions are received at the adjudications unit, they
           are batch checked against the IBIS database. IBIS checks are
           usually completed within one business day.

       •   Once cleared through IBIS, premium petitions are assigned to an
           adjudicator. Some adjudicators process only certain classification
           types, while others work on a range of premium and routine
           petitions. In the latter case, the premium petitions are adjudicated
           before any routine cases.

       •   Premium Processing petitioners have access to a phone number and
           e-mail address where they or their attorneys can directly contact an
           Immigration Information Officer or a Center Adjudications Officer
           with questions regarding their applications. Such access to INS
           staff is not available to routine Form I-129 petitioners.
           Adjudications Officers state that the increased contact between
           them and petitioners assists both in identifying fraud and quickly
           obtaining necessary information that may have been left out of the
           original application package.


       8
         The INS has contracted with the Service Center Operations Team (SCOT) to provide
comprehensive mail distribution, data entry, and other records processing services at the
four service centers involved in premium processing (See Appendix VI).
       9
         Contractor staff at the CSC, VSC, and NSC hand carry premium petitions to the
adjudications staff as they are processed in the mailroom and data entry center. At the
TSC, premium petitions are shuttled 30 miles from the mailroom to the adjudications staff
twice daily.

                                         -6-
      •    Depending on the classification type, the actual adjudication
           process takes from half an hour to two hours. The actual
           adjudication time is the same for petitions that are premium
           processed and for those that are not.

      •    A daily Critical Aging Report that lists every pending premium
           petition over eight days old is generated to ensure that adjudicators
           will not exceed the guaranteed 15-day processing time.

      •    Once completed, all adjudicated petitions that are premium
           processed are reviewed by Supervising Center Adjudications
           Officers. Once reviewed, an Approval, Intent to Deny, Request for
           Evidence, or Notice of Investigation for Fraud or Misrepresentation
           is sent to the petitioner.

      Routine processing is similar to that of Premium Processing, without
the priority given to premium petitions. For example, all routine petitions
are mailed to a service center. Once received at the service center, they
must be checked in IBIS, sorted, processed, and forwarded to the
appropriate adjudications unit. However, mailroom and data entry
processing may take significantly longer than one day.

       During the adjudication process, routine petitioners do not have the
same access to INS staff, and adjudicators are less likely to have personal
contact with petitioners or their attorneys regarding missing or questionable
information. Instead, any questions the adjudicators have on routine
petitions are handled by sending a written Request for Evidence to the
petitioners or their attorneys.

       While the actual adjudication time is about the same for routine
petitions, there is no Critical Aging Report for them and adjudicators are less
aware of how long they have had a file. Also, while supervision differs in
each service center, it is less stringent for routine petitions than for Premium
Processing. For example, in some service centers, only denied petitions are
reviewed by Supervising Center Adjudications Officers.

      The following table shows the monthly number of premium petitions
received and processed by each service center10 (Appendix II details the
monthly receipts by type of classification for each of the service centers).



      10
         Because the INS does not accumulate Premium Processing data separately in its
work measurement system, we relied on information that the INS’s Information Services
Division accumulated from the service centers.

                                        -7-
      Monthly Premium Processing Receipts by Service Centers
                                                                   All Service
                             VSC       TSC         CSC     NSC      Centers
    FY-2001
      June                     547        353        360     202         1,462
      July                     914        657        640     589         2,800
      August                 3,641      2,383      2,447   1,851        10,322
     September               2,264      1,593      1,819   1,122         6,798
       TOTAL                 7,366      4,986      5,266   3,764       21,382
    FY 2002
      October                2,719     1,941  2,219  1,356               8,235
      November               2,410     1,939  1,896  1,243               7,488
      December               2,394     2,008  1,884  1,368               7,654
      January                2,548     1,957  1,881  1,286               7,672
      February               2,694     1,999  1,666  1,219               7,578
      March                  2,976     2,269  1,644  1,431               8,320
      April                  3,034     2,527  2,127  1,482               9,170
      May                    4,334     2,807  2,293  1,803              11,237
      June                   4,289     3,039  2,197  1,762              11,287
      July                   4,699     3,609  2,676  2,158              13,142
      August                 4,606     3,208  2,660  2,040              12,514
      September              4,062     2,643  2,332  1,700              10,737
        Total               40,765    29,946 25,475 18,848            115,034
    Program Totals          48,131    34,932 30,741 22,612            136,416
       Source: INS Information Services Division



      The INS processed 136,416 premium service petitions from the
inception of the Premium Processing program in June 2001 through
September 2002. During the same period the INS issued 223 refunds, of
which 129 were due to failure to complete processing within the guaranteed
15-day period. The following table delineates why the INS refunded these
premium service fees.




                                      -8-
                        Refunds Processed by Service Centers
                             During FY 2001 and 2002

                 Reasons for Refunds               VSC    CSC    TSC     NSC     Total

    H-2A, Now Exempt from Premium Fee                 4      0       1       4       9

    Ineligible                                        1      0       6       0       7

    Adjudicated Prior to PP Request                   0    33      13        5      51

    Misc. (no fee payment, duplicates, etc.)          3      9     15        0      27

    Failed 15-day processing                        29     43      55        2    129

    Totals                                          37     85      90      11     223
       Source: INS Information Services Division



Interagency Border Inspection System (IBIS)

        As noted above, IBIS is a multi-agency database of lookout
information that was initiated in 1989 to improve border enforcement and
facilitate inspection of individuals applying for admission to the United States
at ports of entry and pre-inspection facilities. IBIS is a joint effort of the
INS, the Customs Service, and the Departments of Agriculture and State.11
It combines lookout information from 27 agencies into the Treasury
Enforcement Communications System II (TECS II) database. The system,
created and maintained by United States Customs Service, supports federal
agencies by collecting information on individuals suspected of illegal
activities.

      TECS II was created to maintain and receive information on persons
entering the United States and now serves as the central database for IBIS.

      IBIS utilizes document readers that permit the reading of travel
documents, improve the exchange of data between agencies regarding alien
arrival and departure, and provide staff at ports of entry with the ability
quickly to detect fraud, share intelligence, and prosecute violators.

       11
          Some of the other agencies participating in IBIS include: Intelligence Community
Management Staff; Office of the Deputy Assistant Secretary of Defense for Drug
Enforcement Policy and Support; Federal Bureau of Investigation; Central Intelligence
Agency; Drug Enforcement Administration; Interpol; United States Marshals Service;
Federal Aviation Administration; United States Coast Guard; Department of the Interior;
Internal Revenue Service; Bureau of Alcohol, Tobacco, and Firearms; United States Secret
Service; Bureau of Land Management; and, the Food and Drug Administration.

                                         -9-
       IBIS contains numerous database files and connects with other
databases such as the FBI’s National Crime Information Center (NCIC). The
INS service centers generally search the IBIS database using name and date
of birth and the results of the search can include the following:

       •    Lookout – Lookout information or adverse information linking
            individuals to disqualifying criminal activity, ongoing investigations
            of an individual’s links to groups that pose a threat to national
            security, known or suspected terrorists, advisories as to whether to
            take or not to take action upon encountering the individual.

       •    Wants – Data indicating that the individual is wanted by a state or
            federal law enforcement agency in connection to criminal activity.

       •    Warrants – State or federally executed documents advising the hold
            of an alien or lawful permanent resident who is wanted for criminal
            activity.

       In November 2001, the INS instructed the service center directors to
begin conducting electronic IBIS checks on four types of applications and
petitions.12 By instructions issued in January 2002, the service centers are
now required to conduct these checks on all types of benefit applications and
petitions. Although the INS has successfully processed the vast majority of
premium petitions within 15 calendar days, the expanded usage of the IBIS
database in the adjudication process may adversely affect the meeting of
this requirement.

       In addition, we were made aware of other IBIS-related issues that can
also affect the adjudication process. The INS has a Memorandum of
Understanding (MOU) with the United States Customs Service regarding the
use of TECS II information. The provisions of the MOU describe the common
procedures to provide adequate security, data integrity, and performance.
Generally, the INS agrees to comply with the appropriate administrative
security provisions related to the use and dissemination of the information in
TECS II and to consider all information in TECS II as “Unclassified, For
Official Use Only.” The INS is currently addressing the following policy issues
with the intention of modifying them as appropriate:




       12
          As stated previously, the four applications included the: Form I-485, Application to
Register Permanent Residence or to Adjust Status; Form I-90, Application to Replace
Permanent Residence Card; Form I-821, Application for Temporary Protected Status; and
Form I-765, Application for Employment Authorization.

                                          - 10 -
      1.   Under the MOU, the INS must abide by the “third agency rule”,
           which prohibits the INS from contacting a petitioner regarding
           IBIS related information without the consent of the third agency
           (agency responsible for entering data into the IBIS database). For
           example, for a premium petition that has had an IBIS hit13 and is
           being held and reviewed to determine whether the beneficiary
           poses a threat to national security, the third agency rule prohibits
           the INS from contacting the petitioning business or individual to
           obtain additional information until it has communicated with the
           originating agency and received permission to do so. This
           constraint can delay the adjudication process.

      2.   The INS is limited in its use of the IBIS database information to
           determine the award or denial of immigration benefits. If, for
           example, a beneficiary is otherwise eligible for a particular benefit,
           the INS cannot deny that individual on the basis of an IBIS hit.

      According to the INS officials and staff whom we interviewed, the INS
is working towards addressing these issues through procedural changes for
submitting and processing applications. The agency is also pursuing
amendments to the current law based on recent changes in immigration
practices. For example, according to INS officials, the INS is seeking
provisions in the law that will allow petitions to be placed in abeyance for
prolonged periods of time.14




      13
        An IBIS hit means the beneficiary’s name and date of birth match an IBIS entry
made by one of the participating agencies.
      14
       The INS requested that its Office of the General Counsel address these problems in
December 2001; as of October 2002, the issues were still unresolved.

                                        - 11 -
                         FINDINGS AND RECOMMENDATIONS

       I.     INTERAGENCY BORDER INSPECTION SYSTEM (IBIS)
                CHECKS

              Between January and March 2002 the INS service centers
              adjudicated 11,830 Premium Processing petitions without
              checking them against the IBIS database. As a result, the
              INS cannot tell how many, if any, of the approved
              applicants were individuals who were in the INS’s five
              high-risk categories of suspected terrorist, potential threat
              to national security, active want or warrant, aggravated
              felon, or prior deportation.

       On August 21, 2001, INS Headquarters directed the district offices to
conduct IBIS checks on four application types.15 On November 15, 2001,
the INS expanded the mandate to include the same four applications
processed in the service centers. Then, on January 28, 2002, IBIS checks
were mandated for all applications and petitions, including Form I-129
petitions. However, the service centers did not implement IBIS checks for
all applications until March 18, 2002. According to a senior INS official,
“Although the 1/28/02 amendment to the Adjudicators' Field Manual
provides the direction for full implementation, we were not aware nor were
the Service Centers aware that this amendment had been put in place.
During the time between January 2002 and the March 14, 2002, the Centers
were given verbal direction to begin adding additional forms and to begin the
preparation of their operations for full IBIS check implementation” (See
Appendix V for a timeline of the IBIS policy changes).16

      At the service centers, the applicant names were to be checked
against the IBIS database on a batch basis for derogatory, lookout, criminal
investigative, criminal history, and national security or intelligence interest
information.



       15
         The four applications included the: Form I-485, Application to Register Permanent
Residence or to Adjust Status; Form I-90, Application to Replace Permanent Residence
Card; Form I-821, Application for Temporary Protected Status; and Form I-765, Application
for Employment Authorization.
       16
          While our audit was in progress, the INS began requiring checks of the IBIS
database for all applicants and petitioners seeking immigration benefits. This decision had a
significant impact on the adjudication function of the INS; as a result, we expanded the
scope of our audit to include testing of IBIS checks by the service centers that handle
premium processed petitions.


                                         - 12 -
      The consequences of the delay in implementing IBIS checks on all
applications and petitions are unknown but potentially serious. We
determined that the INS processed 387,596 total applications (including
11,830 premium processing applications) without IBIS checks in the period
between January 28, 2002 and March 18, 2002.

History of Background Checks at the INS

      Prior to 2001 the INS had no standardized procedures for conducting
background checks on petitioners and beneficiaries. The use of IBIS was not
required until that year even though IBIS has existed since 1989. Instead,
the INS relied on other resources, such as its own Service Lookout Book, FBI
fingerprint checks, and selective verification of applications with the
Department of State to check the background of beneficiaries; however, no
data are available to document the extent to which the INS made use of
these resources. In addition, the Center Adjudications Officers had access
on a need-to-know basis to the Non-Immigrant Information System (NIIS),
and the service center’s Enforcement Operations Division could conduct
NCIC checks on petitioners or beneficiaries. However, the use of NIIS and
NCIC was not uniform among the service centers.

      Beginning in 1999, two INS service centers (VSC and TSC),
experimented with IBIS software on a limited basis to determine if this
system could be incorporated into the INS adjudication process. In August
2001 the INS completed installation of IBIS hardware and software at all the
service centers. The plan was to phase in IBIS gradually, applying the
checks to selected petitions over several months.

IBIS Check Process

       According to the current INS’s Standard Operations Procedure Manual
for the Interagency Border Inspection System (November 21, 2002), each
service center must conduct IBIS checks on all petitions within 15 days of
receipt. Checks are conducted in daily batches 17 that include all petitions
and applications received, transferred in, reopened, or that have had a data
change. The IBIS check requirement mandates that checks be conducted
for all petitioners, applicants, beneficiaries, and any derivatives (for
example, businesses and attorneys) that will receive an immediate benefit
from submitted applications and petitions. Premium petitions are not
checked separately; rather they are generally included in the daily batches.


       17
         The batch checks are “front end” verifications at time of receipt. According to the
Standard Operations Procedure, adjudicators also have the discretion to perform individual
IBIS checks at the time of adjudication prior to final approval.

                                         - 13 -
       The IBIS check is valid for only 35 days. During our fieldwork, INS
officials stated that the initial IBIS batch checks might not capture all new
receipts, potentially missing up to 20 percent of petitions received.18
Although no reason was given for missing any receipts, we were told that if,
at the time of adjudication, a petition does not contain evidence of an IBIS
check, or if the check was conducted more than 35 days prior to
adjudication, the Center Adjudications Officer must perform an individual
check on that petition.19 Adjudicators are authorized to perform two
different types of IBIS checks, as described below:

SQ-11 Query –        Individual subject query, allows the user to check a
                     person’s name and date of birth against the IBIS database
                     through data entry of the search criteria.

SQ-16 Query –        Business subject query, allows the user to check the name
                     of a business or school against the IBIS database through
                     data entry of the search criteria

       All matches or hits are sent to the service center’s Triage Review Unit
for a second, more detailed check to verify that all hits match the correct
name and date of birth as recorded on the petition. According to INS staff,
approximately one half of the initial IBIS hits are found to be actual
matches. In those instances, the Triage Review Unit determines whether
the reason for the hit is significant enough to affect adjudication. To
accomplish this, the Triage Review Unit identifies cases relating to
aggravated felonies, NCIC matches, terrorism, and threats to national
security and forwards those applications to the service center’s Enforcement
Operations Division (EOD) for further evaluation. The IBIS Standard
Operations Procedure requires the EOD to refer the terrorism and national
security cases to the National Security Unit (NSU) and the Immigration
Services Division (ISD) at INS Headquarters for investigation. All other
types of hits may be resolved in the Triage Review Unit, or forwarded to the
EOD when deemed appropriate.

       The EOD determines those hits that may require investigation or
further enforcement action. If an IBIS hit is an individual of interest to a
local law enforcement agency, the EOD will notify that agency. The
Premium Processing 15-day clock is not stopped in such cases. If a


       18
          Some receipts are missed in the initial IBIS batch checks because of IBIS’s
interface with NCIC and the CLAIMS databases.
       19
          If a second check is necessary, it is performed by the individual Adjudications
Officer using an online query of the IBIS database, rather than as part of another batch
check.

                                          - 14 -
determination is not made as to how to proceed until after the 15-day period
has expired, the $1,000 premium fee is returned to the petitioner.

      The service center EOD may also work in collaboration with the ISD
and the Office of the General Counsel to resolve certain types of hits. For
example, if uncertainty remains after a petition has been reviewed by the
EOD, the petition may be sent to INS Headquarters where the IBIS Policy
Coordinator reviews and responds to any complications. The IBIS
Coordinator, in turn, may work with the FBI’s Joint Terrorism Task Force and
the INS National Security Unit, the Operating Coordination Cell, or the
Command Center to address significant IBIS hits (A chart illustrating the
IBIS process can be found at Appendix VII).

       The ISD summarizes information about IBIS hits from the service
centers (and the districts) in the IBIS – Significant Hits Summary. We
reviewed the IBIS – Significant Hits Summary covering the period from
May 20, 2002 through October 28, 2002. As of October 28, 2002, there
were a total of 408 hits listed on the IBIS – Significant Hits Summary.
Of the 408 significant IBIS hits, 23 were based on Forms I-129, and 385
were based on other types of applications and petitions. Only 2 of the 23
Form I-129 applications could be identified as Premium Processing
applications.20 The two IBIS hits on Premium Processing applications were
identified as aggravated felons, and their applications were referred to INS
General Counsel for review. With respect to the 385 IBIS hits based on
other types of applications and petitions, 256 hits were related to possible
terrorist threats and 24 related to threats to national security.

       We reviewed the outcome of the 408 total significant IBIS hits and
found the following: 354 were referred to the National Security Unit for
investigation; 12 did not have an outcome identified in the Significant Hits
Summary; and the remaining 42 had various outcomes, including being held
in abeyance, denial of the application, or referral to local law enforcement
agencies. The following table summarizes the essential data about the 408
significant IBIS hits.




       20
          Premium Processing petitions with IBIS hits are not routinely tracked. As a result,
the total number of premium petitions with significant IBIS hits is unknown.

                                          - 15 -
                                  Significant IBIS Hits
                                       I-129        Other
                                    Applications Applications   Total
      Terrorist Threat                        16          256     272
      Threat to National
      Security                                   2         24      26
      Aggravated Felon                           2         13      15
      Prior Deportation                          2          0       2
      Active Warrant                             1          5       6
      Other                                      0         87      87
       Total                                    23        385     408
      Source: INS Significant Hits Report

      As of October 23, 2002, approximately 30,000 petitions were in a
pending status due to IBIS hits. Because Premium Processing petitions are
not checked separately, the INS cannot determine how many of the 30,000
pending petitions are premium without conducting a manual count.

Recommendation

We recommend that the Commissioner, INS:

1.   Strengthen internal communications to ensure that all service centers
     and district offices are fully informed of policy and/or procedural
     changes that will affect adjudication practices before those changes
     become effective.




                                       - 16 -
    II.    STATUS OF PREMIUM PROCESSING

            Although the INS has generally met the requirement of
            processing premium applications within 15 days, the
            Premium Processing program has adversely affected the
            time required to adjudicate routine applications and
            petitions. The mandate to adjudicate premium
            applications within 15 days has contributed in part to the
            increased backlog of routine petitions at the service
            centers. Thus, a program whose purpose was ultimately
            to reduce or eliminate adjudications backlogs may be
            having the unintended consequence of increasing at least
            some of those backlogs.

Backlog Reduction

       The INS allocated $55 million of the $80 million in anticipated Premium
Processing program revenues for general infrastructure improvements and
backlog reduction efforts. Our audit showed that for FY 2002 the INS
received 115,416 premium service applications. Consequently, the
associated program revenue was actually $115,416,000, which exceeded the
original projection ($80 million) by $35,416,000. If we apply the INS’s
original percentages for the allocation of program revenue, the increased
revenue of $35.4 million would have been allocated as follows: adjudications
processing (22 percent) $7.8 million; fraud investigation (9 percent) $3.2
million; infrastructure improvement (44 percent) $15.6 million; and backlog
reduction (25 percent) $8.8 million.

       Thus, for FY 2002, approximately $24.4 million ($15.6 million and $8.8
million) should have been available for infrastructure improvements and the
overall backlog reduction effort. However, because expenditures are not
separately identified by revenue source in the IEFA, we could not determine
whether any of the additional premium service revenues were actually used
to fund the infrastructure improvements and backlog reduction efforts.
However, we did determine that the backlogs of pending applications and
petitions have continued to grow, as shown in the following table.




                                   - 17 -
          Pending Applications and Petitions by Service Centers
          PERIOD        VSC        TSC          CSC       NSC       TOTAL

      FY 2000          392,757    336,721       670,105   476,808   1,876,391
      FY 2001          633,650    712,478   1,016,875     646,465   3,009,468
      FY 2002:
          1ST QTR      636,847    664,971       993,841   582,948   2,878,607
          2ND QTR      693,545    540,010       894,944   519,218   2,647,717
          3RD QTR      737,495    578,959       909,309   632,063   2,857,826
           th
          4 QTR       759,578     758,863      996,064    734,721   3,249,226
          Source: INS Information Services Division



       The table illustrates that backlogs reached a low in the second quarter
of FY 2002 before beginning a steady increase. According to INS officials,
the rising backlog is due in part to the implementation of IBIS checks
servicewide in March 2002.

Effect of IBIS on Processing Times

        Under ideal conditions the Premium Processing program should have
little impact on the processing times of other visa types. However, when
situations occur that disrupt general processing times, those times are likely
to be further exacerbated by the premium service. As has occurred with the
implementation of IBIS checks, more petitioners will choose the premium
service if general processing times are prolonged. Because Premium
Processing receives priority, backlogs for routine cases may continue to
grow. In this way, a program that was intended to reduce backlogs may
actually have the effect of increasing backlogs for routine applications.

       Since implementation of the IBIS check procedures, the processing
times for routine Forms I-129, Petition for a Nonimmigrant Worker, have
increased about three-fold from about 37 to 112 days. According to INS
officials, the primary reasons for the increases in the backlog of Forms I-129
are:

      •   Increases in naturalization and temporary protected status
          applications that were not projected in the resource allocation plan
          and have contributed to an increase in pending casework.

      •   Changes in regulations and the launching of new programs, such as
          the Student and Exchange Visitor and Information System (SEVIS)
          and the INS Entry and Exit Registration System (INSEERS), to

                                       - 18 -
         ensure that national security matters are now being taken into
         consideration when adjudicating applications.

     •   Failure of the INS to obtain reprogramming authority to hire
         additional staff to compensate for the more than 500 staff
         dedicated to conducting IBIS checks.

     •   The “Zero Tolerance Memorandum,” dated March 22, 2002, from
         the INS Commissioner stating that there will be a “zero tolerance
         policy with regard to INS employees who fail to abide by
         Headquarters-issued policy and field instructions. Individuals who
         fail to abide by issued field guidance or other INS policy will be
         disciplined appropriately.”

      As a result of the increased time required to process routine
applications, the service centers have reported sizeable increases in the
number of premium service cases being filed. The increase in premium
cases further prolongs processing times for routine cases because staffing
and resources must be pulled from the general adjudication areas to meet
the demands of Premium Processing.

      The following graph illustrates the total number of premium cases
adjudicated since the program’s inception. In March 2002, when the IBIS
checks were implemented for all applications, the requests for Premium
Processing began to increase dramatically.




                                  - 19 -
                                                          Total Premium Processing Receipts by Month



                       14,000
     Number of Cases



                       12,000
                       10,000
                        8,000
                        6,000
                        4,000
                        2,000
                                                  0




                                                                                                                                ne
                                                            ly




                                                                                                02




                                                                                                                         ay




                                                                                                                                       ly
                                                                  st




                                                                                                                                                       t
                                                01




                                                                                                                   ril
                                                                         pt




                                                                                                             ar
                                                                              ct




                                                                                          ec




                                                                                                                                                       r
                                                                                   ov




                                                                                                       b




                                                                                                                                            S e gus

                                                                                                                                                    be
                                                                                                     Fe
                                                          Ju




                                                                                                                                     Ju
                                                                 gu




                                                                              O




                                                                                                                  Ap
                                                                       Se




                                                                                                           M
                                                                                         D




                                                                                                                         M

                                                                                                                              Ju
                                                                                   N




                                                                                              n-
                                              n-




                                                                                                                                                  em
                                                             Au




                                                                                                                                        Au
                                                                                            Ja
                                            Ju




                                                                                                                                               pt
                                                                                                     Month


     Source: INS Information Services Division

      Increases in premium cases will bring in added revenue. However,
they will also significantly impact the processing times for routine Forms
I-129, Petition for a Nonimmigrant Worker. The following graph shows the
average processing days for routine Forms I-129 for calendar year 2002
through September 2002. It is clear that the processing times have
increased significantly since the start of the IBIS checks in March 2002.


                                                      Average Processing Times for Routine Forms I-129




                                                  120
                                                  100
                        Processing Time in Days




                                                   80
                                                   60
                                                   40
                                                   20
                                                      0
                                                            Jan-       Feb-       Mar-    Apr- May- Jun-                 Jul-      Aug- Sep-
                                                             02         02         02      02   02   02                   02        02   02



                                                  Source: INS Information Services Division



                                                                                         - 20 -
      There is also some indication that IBIS checks are adversely affecting
processing times for Premium Processing petitions. Thirteen refunds were
made to Premium Processing petitioners for failure to adjudicate within the
guaranteed 15-day period in the 9 months between the program’s inception
in June 2001 and the start of the IBIS checks in March 2002. In the 7
months from March 2002 through September 2002, an additional 116
refunds were issued for failure to meet the 15-day requirement. Although
the number of refunds is small in comparison to the total number of
applications processed through the Premium Processing program (less than
0.2 percent), this is an eight-fold increase in the number of refunds.

       The mandate for the IBIS checks was a procedural change for INS
adjudications. However, the INS did not adequately plan for the
implementation of IBIS checks. IBIS existed in the United States Customs
Service since 1989 and the INS began experimenting with its usage in 1999.
Impacts on both premium and routine employment-based visas can be
expected whenever program or procedural changes are put into place.
Without adequate planning, the service centers were not prepared to handle
unexpected shifts in their workloads, and the processing times for routine
petitions has increased dramatically.

Recommendation

We recommend that the Commissioner, INS:

2.   Ensure that the excess program revenues, not used for adjudication
     processing and fraud investigation, are utilized for backlog reduction
     efforts.




                                   - 21 -
       III. INS MANAGEMENT OVERSIGHT

              Management oversight of the Premium Processing program
              has been weak since its inception. The Premium
              Processing applications and related statistical data are not
              tracked in the same manner as other national adjudication
              statistics. In addition, the INS has yet to conduct formal
              analyses to determine the added costs associated with
              processing premium applications or the justification for the
              $1,000 premium. Because each service center has
              autonomy over its own organizational structures and
              methods of program administration, there is little
              consistency among service centers in these areas. The
              centers vary considerably in their processing procedures,
              processing times, and refund rates. However, the INS
              does not have the mechanisms to evaluate these
              variations. Without Premium Processing statistical data in
              the national reporting databases, the INS is unable to
              determine if the resources devoted to the program are
              being used effectively, or if the premium is sufficient to
              cover the costs of premium processing.

Premium Processing Statistical Data

       The four service centers that adjudicate Premium Processing petitions
submit reports to INS Headquarters. The reports include: (1) a general
daily contact report that outlines the number of premium petitions that were
approved, denied, or held with a Request for Evidence (RFE) and the
corresponding reason; (2) a Critical Aging Report that lists every premium
petition over eight days old; (3) a daily summary report listing the day’s
activity; and (4) an RFE report that lists all pending requests for evidence.

      While we do not question the utility of these four reports, we do not
consider them sufficient. In our judgment, data on Premium Processing
should be incorporated into the INS’s general work measurement system,
the Performance Analysis System (PAS).21 Between June 1, 2001 and
September 30, 2002, the INS received 136,416 premium processing
applications and more than $136 million in associated fees. Nevertheless,
the INS has not incorporated Premium Processing data in PAS.



       21
          The PAS is a statistical database used for a wide range of purposes, including
supporting budget requests, determining position allocations, measuring planned versus
actual accomplishments, analyzing application backlogs, and responding to inquiries.

                                         - 22 -
      Officials from the INS Office of Policy and Planning stated that they did
not include Premium Processing data in the PAS because Premium
Processing is not considered a permanent program. However, we disagree
with this line of reasoning. The Premium Processing program generated
over $115 million in fiscal year 2002, and the INS estimates that the
program will generate over $180 million once the program is expanded to
include the Form I-140, Immigrant Petition for Alien Worker, in 2003.
Unless the INS incorporates Premium Processing data in its established
databases, it must rely on the various reporting systems from the individual
service centers for its program statistical data. These individual systems are
inconsistent in methodology and accuracy, and do not provide standardized
reporting and adequate program analyses. As a result, we believe the INS
management lacks the information needed to determine the proper
allocation of resources among the service centers.

       PAS data are also useful for determining the strengths and weaknesses
of the service centers. Since each service center differs in program
administration and organizational structure, the inclusion of Premium
Processing information in PAS would assist the INS in determining those
operations that are most efficient or effective in meeting their program
goals.

Time and Motion Study

       Since implementing the Premium Processing program, the INS has not
conducted a time and motion study to determine the program’s unit cost for
processing premium cases. Without a unit cost analysis, the added costs
associated with Premium Processing are unclear. For example, the premium
service requires extensive customer service, including exclusive telephone
lines and e-mail addresses for questions from attorneys and petitioners.
However, the costs of these services are unknown.

       During our audit, we monitored the adjudication process for premium
petitions from beginning to end, and we observed as petitions were hand-
carried between the contractor staff and the INS adjudicators. After meeting
with all levels of adjudications staff, we determined that Premium Processing
petitions are adjudicated by the most experienced and skilled workers, and
are reviewed much more frequently and thoroughly than routine cases.
Also, adjudicators are far more likely to contact Premium Processing
petitioners directly with questions or concerns than they are for routine
cases, because of the increased contact already established by the Premium
Processing telephone lines and e-mail addresses. These additional services
could be more costly to provide, but the INS cannot make a determination of
these costs without a cost analysis.


                                   - 23 -
       A time and motion study is important because the number of Premium
Processing petitions is growing while the total number of Forms I-129,
Petition for A Nonimmigrant Worker, is declining. Since reaching 62,474
petitions in February 2002, Form I-129 receipts have dropped every month
until reaching 37,972 in June 2002. However, the number of Premium
Processing cases has grown since March 2002, so that the total percentage
of premium receipts among Forms I-129 is on the rise. The INS initially
estimated that premium filings would range from 10 to 25 percent of total
filings for eligible petitions. As indicated in the table below, the percentage
of premium receipts (to total receipts) increased dramatically from March
2002 to July 2002, after which they started to decline.


                    Growing Percentage of Premium Receipts
                                       Number of          Premium Receipts as
                    Total I-129      I-129 Premium         Percentage of Total
       Period        Receipts           Receipts             I-129 Receipts
     FY 2001
      June                 68,932                 1,462                    2%
      July                 68,439                 2,800                    4%
      August               61,431                10,322                   17%
      September            51,342                 6,798                   13%
      October              53,867                 8,235                   15%
      November             67,649                 7,488                   11%
      December             40,248                 7,654                   19%
     FY 2002
      January              44,944                 7,672                   17%
      February             62,474                 7,578                   12%
      March                61,962                 8,320                   13%
      April                46,285                 9,170                   20%
      May                  41,726                11,237                   27%
      June                 37,972                11,287                   30%
      July                 39,390                13,142                   33%
      August               44,598                12,514                   28%
      September            38,668                10,737                   28%
       Total             829,927                136,416                  16%
       Source: INS Office of Policy and Planning



      If the increasing rate of premium petitions continues, the program will
bring in considerably more revenue, up to 50 percent more than anticipated




                                       - 24 -
by the INS.22 Additional revenue notwithstanding, the increase in premium
filings is likely to place a disproportionate amount of pressure on service
centers and contractor management and staff. Without a study to determine
the added costs associated with processing premium cases, INS managers
will not have all the information needed to make sound decisions about the
allocation of resources for the adjudication of both premium and routine
applications and petitions.

Processing Cost Analysis

       We conducted a limited analysis to determine how much of the $1,000
premium is used for processing adjudications. Our analysis determined that
approximately $219 per petition was allocated for processing premium
applications. This amount is based on the $17.5 million,23 or 22 percent, of
the projected $80 million in program revenue allocated by the INS for
Premium Processing staffing and program maintenance. This amount is in
addition to the normal application fee of $130 (the cost of processing routine
applications).24 The following table is a breakdown of the $1,000 program
fee, which we calculated based on the INS’s allocations of the projected $80
million in annual program revenue.


            Premium Processing $1,000 Service Fee Breakdown
                                                                            Fee
     Fee Utilization Category                 Million ($)    Percent     Breakdown
     Adjudication Processing                       $ 17.5       21.88       $ 218.75

     Fraud Investigation                               7.5       9.37           93.75

     Backlog Reduction and Processing                 20.0      25.00          250.00

     General Infrastructure                           35.0      43.75          437.50
     Improvements
        Total                                     $ 80.0       100%       $1,000.00
       Source: INS Information Services Division and OIG Analysis




       22
          Premium receipts for FY 2002 were $115,034,000, which is a 44 percent increase
over the planned $80 million.
       23
          $17.5 million divided by 80,000 projected premium petitions equals $219.
       24
         The adjusted fee schedule for the IEFA was published in the Federal Register, Vol.
66, No.246, December 21, 2001. The fee for Form I-129, Petition for a Nonimmigrant
Worker, was adjusted from $110 to $130.

                                         - 25 -
Premium Processing Program Fee Analysis

      In addition to the failure to perform a time and motion study for
Premium Processing, the INS did not perform a formal analysis to support
the $1,000 Premium Processing service fee. Congress authorized the
$1,000 premium service fee because the program is voluntary and will allow
the INS to generate revenue for additional staffing resources, backlog
reduction efforts, and infrastructure improvements. However, the fee
amount was based primarily on recommendations from potential users, and
not on a formal study. In fact, INS officials stated that the fee amount was
somewhat arbitrary in its development. Without an adequate analysis, it is
unclear how the $1,000 premium fee will impact users, particularly small
businesses. The fee analysis should be completed before the INS expands
the Premium Processing program to include other petitions. Furthermore,
when Congress authorized Premium Processing, it established the fee at
$1,000 but authorized the Attorney General to adjust the fee according to
the Consumer Price Index.

Service Centers Differ in their Methodologies for Program
Management and Processing Procedures

      During our fieldwork at each of the service centers, we interviewed
premium processing management and staff, reviewed staffing allocations,
and documented processing procedures. Because the service center
directors have considerable discretion to manage their own workloads and
allocate staff, we found significant differences in methodology among the
four service centers. Our observations are as follows.

St. Albans, Vermont – The VSC is the largest of the four service centers
and processed the most premium petitions, 48,131 through September
2002.25 The VSC Premium Processing Unit has a designated staff that
processes premium cases along with other petitions. Premium cases have
priority, but must be managed along with other work. At the time of our
fieldwork, the VSC had a total of 55 service center personnel working on
premium cases: 35 Center Adjudications Officers, 8 Immigration Information
Officers, and 12 Clerks. The 35 Adjudications Officers included staff that had
been hired in anticipation of the introduction of Premium Processing for the
Form I-140, Immigrant Petition for Alien Worker. The VSC also has two
Supervising Center Adjudications Officers who oversee only Premium
Processing cases. The number of staff designated to Premium Processing is
flexible, changing depending on the volume of filings. Currently, this group
of adjudications staff is working almost exclusively on premium cases, due
to the volume of premium receipts.

      25
           The program began in June 2001 at all service centers.

                                          - 26 -
      The VSC is the only center to establish a Premium Processing steering
committee to address various concerns from staff and management. The
committee is comprised of two Supervising Center Adjudications Officers,
two Center Adjudications Officers, one Immigration Information Officer, and
one Clerk. The group meets weekly and has the authority to recommend or
make changes to the center’s Premium Processing program design. In our
judgment, this is a best practice that should be implemented by the other
service centers.

      With the exception of the monthly reports mandated by the ISD, the
VSC does not track Premium Processing program data. The VSC employee
performance based evaluation system does not call for such performance
measures as staff and supervisory hours spent on Premium Processing or
other cases.

Dallas, Texas – The TSC processed 34,932 premium petitions through
September 2002. The TSC management created a completely separate unit,
which processed only Form I-129, Petition for a Nonimmigrant Worker,
premium petitions. At the time of our fieldwork, the unit consisted of 17
service center personnel: 9 Center Adjudications Officers, 4 Immigration
Information Officers, and 4 Clerks. A Supervising Center Adjudications
Officer is also dedicated to premium cases.26 While staff in the Premium
Processing Unit focus primarily on premium cases, they may also work with
routine applications and petitions if time permits.

      The TSC Premium Processing program management worked with the
center’s Director and the EOD to provide EOD with staff that work
exclusively on Premium Processing petitions. Premium Processing
Adjudicators have specific IBIS contacts and Information Officers within EOD
who work only with premium cases.

Laguna Niguel, California – The CSC processed 30,741 premium petitions
through September 2002. At the time of our fieldwork, the CSC had 33
service center personnel working on premium cases: 27 Center
Adjudications Officers, 2 Immigration Information Officers, and 4 Clerks.
Like the VSC, the CSC designated certain staff to work on Premium
Processing cases in addition to other routine petitions. However, unlike the
VSC, the Supervising Center Adjudications Officers at the CSC oversee both
premium and routine cases.


       26
         When the Form I-140, Immigrant Petition for Alien Worker, becomes eligible for
Premium Processing, separate units at TSC and the NSC, with a manager or supervisor and
staff whose first priority will be Premium Processing, will adjudicate the ensuing petitions.

                                          - 27 -
Lincoln, Nebraska – The NSC, the smallest of the four service centers,
processed 22,612 premium petitions through September 2002. Like the
TSC, the NSC has a separate unit specifically dedicated to Premium
Processing. At the time of our fieldwork there were 14 service center
personnel (8 Center Adjudications Officers, 2 Immigration Information
Officers and 4 Adjudications Clerks) who worked primarily on premium
cases, although they handled other types of cases if time allowed. A
Supervising Center Adjudications Officer was also dedicated to premium
cases.

        The four service centers that adjudicate the petitions eligible for
Premium Processing differ significantly in their program management,
staffing, and processing procedures. The physical characteristics of the
centers account for many of the differences, but variations in operations
design and management may also contribute to more efficient adjudications
processing. However, without comparable data for the four service centers
it is difficult to recommend any best practices.

      However, we did perform a brief analysis of the average number of
premium service applications processed in FY 2002. For purposes of this
analysis, we utilized the number of Center Adjudications Officers (CAOs)
allocated to each service center by INS Headquarters and the actual number
of CAOs working on premium cases at the time of our on-site audit work.
The following table compares certain data about staffing and
accomplishments that we acquired from each of the service centers and
provides our limited analysis of the data.




                                  - 28 -
                       Fiscal Year 2002
   Average Number of Premium Service Applications Processed
        FY 2002              VSC           TSC         CSC      NSC          ALL

Premium Service
Applications Processed      40,765        29,946       25,475   18,848     115,034

Allocated CAOs                    31             28       29        23            111

Applications Processed
per Allocated CAO             1,315        1,070         878       819        1,036

Actual CAOs                       35              9       27          8            79

Applications Processed
per Actual CAO                1,165        3,327         944     2,356        1,456

Allocated vs. Actual               4            (19)      (2)     (15)            (32)
CAOs

Dedicated Premium
Processing Unit                  No             Yes       No       Yes
 Sources: INS Information Services Division, Service Centers, and OIG Analysis.



    Our analysis resulted in the following general observations:

    •   Nationwide the number of CAOs actually performing Premium
        Processing as of the time of our fieldwork was 32 less than the total
        number allocated to the service centers for this purpose by INS
        Headquarters. The number of CAOs actually adjudicating Premium
        Processing applications at two service centers (TSC and NSC) was
        significantly lower than the number of CAOs allocated for that
        function.

    •   For the CAOs actually performing Premium Processing, the average
        number of applications processed per CAO was significantly higher
        at the two service centers that have dedicated Premium Processing
        units (TSC and NSC). The comparable averages at the other two
        service centers might have been affected by the extent to which the
        CAOs process routine applications and petitions.




                                       - 29 -
      It also raises certain questions.

      •   Why did the ratio of applications processed per allocated CAO vary
          so widely, from 819 (NSC) to 1,315 (VSC)? Were the service
          centers with higher ratios more efficient than the others? Did the
          service centers with lower ratios process a larger volume of difficult
          or time-consuming applications?

      •   Why was the number of CAOs actually working on Premium
          Processing less than the number of allocated CAOs at three service
          centers? Did local management assign CAOs allocated for Premium
          Processing to other functions? If so, was the Premium Processing
          workload adversely affected by that assignment?

      Without consistent data for all the service centers, it is difficult to
answer these questions. More important, the INS does not have adequate
data to evaluate the Premium Processing program. The lack of consistent
data for all the service centers denies INS management the kind of
information needed to provide strong program oversight and to make sound
managerial decisions about such matters as position allocation.

       As previously mentioned, the inclusion of Premium Processing
statistical data in the existing Performance Analysis System would enable
program management to determine proper staffing allocations, measure
actual versus planned production, and develop adequate information to
support budget requests.

Recommendations

We recommend that the Commissioner, INS:

3.   Accumulate statistical data for Premium Processing by adding a separate
     category in the INS work measurement databases.

4.   Conduct a comprehensive time and motion study to determine
     appropriate unit costs for processing premium cases in order to ensure
     that the service centers have adequate staff and resources to meet the
     added demands associated with Premium Processing.

5.   Conduct an analysis of the $1,000 premium to ensure that the
     allocations for processing applications, fraud investigations, backlog
     reduction, and infrastructure improvements are completed as approved
     by Congress.



                                    - 30 -
                           OTHER REPORTABLE MATTER

Program Expansion of Premium Processing

        At the time of the program’s inception, the INS anticipated it would
expand its Premium Processing to include the Form I-140, Immigrant
Petition for Alien Worker, yet did not include the related revenue projections
in its proposal to Congress or in its early program planning. Focus group
meetings conducted with potential users six months before the inception of
the program addressed the Form I-129, Petition for a Nonimmigrant Worker,
as well as the program’s expansion to include the Form I-140. However, all
initial program data, such as budget and revenue projections, staffing
allocations, and standard operating procedures were based solely on the
Form I-129. The INS did not begin including the Form I-140 in budget
projections until May 2002.

       The Forms I-140 were expected to become eligible for Premium
Processing in May 2002, and were to be phased in by classification.27
However, the date was changed several times, and eventually postponed
indefinitely because of the focus on the implementation of the IBIS check
procedures. If Premium Processing had been expanded to include the Forms
I-140 on May 1, 2002 as initially planned, program revenue to date would be
approximately 39 percent higher. Based on the INS’s initial projections, the
inclusion of the Forms I-140 in Premium Processing was expected to
generate an additional $45 million in FY 2002. The INS now estimates that
the inclusion of the Forms I-140 in Premium Processing will more than
double program revenues in FY 2003 and beyond.




       27
           The Form I-140, Immigrant Petition for Alien Worker, is an application for
permanent residence in the United States based on employment. There are several
classifications within the Form I-140. The initial timeline for implementing Premium
Processing to the Forms I-140 is as follows:
 •   May 1, 2002: Schedule A Group 1, Registered Nurse; Schedule A Group 2 Physical
     Therapist; E13, Multinational Executive/Manager; EW3, Other Workers (less than two
     years training or work experience).
 •   July 1, 2002: E31, Skilled worker (two years education, training or work experience);
     E32, Professional (Baccalaureate Degree or foreign equivalent and beneficiary is
     professional).
 •   September 1, 2002: NIW, National Interest Waiver; I11, Extraordinary Ability.
 •   November 1, 2002: E12, Outstanding Professor/Researcher; E21, Advanced
     Degree/Exceptional Ability.

                                          - 31 -
               STATEMENT ON MANAGEMENT CONTROLS

     In planning and performing our audit of the INS’s Premium Processing
program, we considered the INS’s management controls for the purpose of
determining our auditing procedures. This evaluation was not made for the
purpose of providing assurances on the management control structure as a
whole.

     We identified the following weaknesses in the INS’s Premium
Processing program and made appropriate recommendations. They are:

     •   The INS service centers failed to implement IBIS checks in a timely
         manner and that failure resulted in 11,830 premium processing
         petitions and 375,766 routine petitions being adjudicated without
         being checked against the IBIS database between January and
         March 2002.

     •   The INS failed to meet its goal of reducing the servicewide backlog
         for all petitions. Our analysis found that the backlog has increased
         steadily since the second quarter of 2002.

     •   The Premium Processing program oversight is weak. Premium
         Processing applications and related statistical data are not
         separately identified in the national adjudication statistics.
         Furthermore, the INS did not conduct formal analyses to determine
         the added costs associated with the Premium Processing program
         or the justification of the $1,000 premium.

      Because we are not expressing an opinion on the INS’s overall
management control structure, this statement is intended solely for the
information and use of the INS in managing its premium service program.




                                   - 32 -
    STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS

     We conducted our audit of the INS’s administration of the Premium
Processing program in accordance with government auditing standards.

       As required by the standards, we tested selected transactions and
records to obtain reasonable assurance about the INS’s compliance with laws
and regulations that, if not complied with, we believe could have a material
effect on operations. Compliance with laws and regulations applicable to the
Premium Processing program is the responsibility of the INS management.

       An audit includes examining, on a test basis, evidence about laws and
regulations. The specific requirements for which we conducted tests are
contained in the United States Code, Title 8, §1356, concerning the
collection of fees.

      Except for the issues discussed in the Findings and Recommendations
section in this report, nothing came to our attention that causes us to
believe that the INS management was not in compliance with the section of
the United States Code cited above.




                                  - 33 -
                                                                 APPENDIX I

           AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

Audit Objectives

       We conducted an audit of the INS’s Premium Processing program. The
audit objectives were to determine if: (1) the INS was achieving the
Premium Processing program goals for processing employment-based
petitions and applications; (2) the processing times for similar routine
petitions and applications had changed significantly since the implementation
of the Premium Processing program; and (3) the implementation of the
mandated IBIS check procedures impacted the Premium Processing service.
The original objectives of our audit were broadened to include IBIS checks
because of the clear impact they are having on premium and routine
adjudications. We performed our audit in accordance with the Government
Auditing Standards issued by the Comptroller General of the United States
and, accordingly, included such tests of the records and procedures that we
considered necessary.

Scope

      The scope of the audit encompassed the Premium Processing program
for the period June 2001 through October 2002. Our primary focus was on
the Premium Processing activities at the INS Headquarters in Washington
D.C., and at the four service centers: St. Albans, Vermont; Dallas, Texas;
Laguna Niguel, California; and Lincoln, Nebraska. We conducted fieldwork at
these five locations from February 2002 through July 2002.

       As part of our audit process, we routinely ask management of the
organization audited to furnish us with a signed management representation
letter. In this letter, INS management would certify to us that: (1) they
provided us with all standards, internal reports, memoranda, and other
documentation associated with the Premium Processing program; and
(2) there are no relevant management and internal control matters,
compliance matters, contingencies, irregularities, or subsequent events of
which our staff has not been aware. As of the date of issuance of this
report, the INS Executive Associate Commissioner for Management declined
to sign the letter. Therefore, our findings are qualified to the extent that we
may not have been provided with all relevant information by INS
management.




                                   - 34 -
Methodology

      We conducted 87 interviews with 82 management and staff personnel
from the INS (including the Information Services Division, Budget Office,
Financial Management Division, Office of Policy and Planning, and the Office
of the General Counsel). We also interviewed personnel from the contracted
Service Center Operations Teams (SCOT), and PricewaterhouseCoopers.
Additionally, we analyzed 154 documents including legislative information,
budget material, organizational charts, staffing plans, statistical data, survey
samples, and contract data.

     Our audit work included identifying laws and regulations relevant to
Premium Processing; obtaining an understanding of the INS’s Premium
Processing procedures for employment-based petitions and applications;
determining the INS’s performance in providing premium service; and
assessing the implementation and impact of the INS’s mandated IBIS check
procedures.

       To determine whether the INS was achieving its Premium Processing
program goals, we worked with the INS’s Headquarters management and
staff to obtain general program information, including total receipts data for
each Form I-129 classification eligible for Premium Processing, along with
refund information. The receipts data were arranged by service centers and
included servicewide totals. Refund information was tracked under five
categories, which enabled us to determine the most common causes for
refunding the premium fee. We also evaluated the INS’s plans to expand
Premium Processing to include the Form I-140, Petition for Alien Worker.
Related work included reviewing the budgeting and staffing allocations for
the Premium Processing program.

       In verifying whether the Premium Processing service has impacted
processing times for similar routine petitions, we visited each service center
to interview management and staff. We documented the Premium
Processing operations and procedures, reviewed service center staffing
allocations for the premium service and compared the allocations to the
actual number of staff working on Premium Processing petitions, and
obtained available data regarding the average processing times for premium
and routine cases. The service centers’ management preparations for the
anticipated increases in premium service applications, once the program is
expanded to include the Form I-140 applicants, were also discussed. Lastly,
we documented the differences in the program management and processing
procedures among the service centers, and compared contractor services,
such as data processing and mailroom operations.



                                    - 35 -
      During our audit, the INS implemented mandatory IBIS check
procedures for all benefit petitions and applications, including Premium
Processing. Because of the impact the new IBIS check requirement was
having on the service centers’ operations, for both the premium and routine
processing, we documented this process. We evaluated the changes in
premium and routine receipt totals, additional processing times, and the
service centers’ procedures for conducting IBIS checks. In addition, we
reviewed the INS’s policy regarding the use of IBIS checks in granting
immigration benefits.




                                  - 36 -
                                                                          APPENDIX II

                   PREMIUM PROCESSING RECEIPT DATA

    I-129                                                                       All
                 Month             CSC            NSC       TSC        VSC
Classifications                                                               Centers
H-1B            June                   0               0      5             0       5
                July                 220             216    171           123     730
                August             1,866           1,152  1,747         2,732   7,497
                Sept               1,314             701  1,047         1,516   4,578
FY 2001 Total                      3,400           2,069 2,970          4,371 12,810
                Oct                1,592             878  1,185         1,889   5,544
                Nov                1,419             816  1,126         1,679   5,040
                Dec                1,336             852  1,249         1,628   5,065
                Jan                1,320             756  1,151         1,759   4,986
                Feb                1,130             712  1,188         1,619   4,649
                Mar                1,131             723  1,340         1,763   4,957
                Apr                1,461             818  1,455         1,909   5,643
                May                1,655           1,150  1,690         2,983   7,478
                June               1,627           1,192  1,931         3,141   7,891
                July               1,994           1,483  2,500         3,361   9,338
                August             2,002           1,356  2,115         3,301   8,774
                Sept               1,707           1,178  1,726         2,933   7,544
FY 2002 Total                     18,374          11,914 18,656        27,965 76,909

                                                                                      ALL
                                   CSC            NSC       TSC        VSC
                                                                                     CTRS
H-2A*              June                   0             0         1              4          5
                   July                   0             0         0              0          0
                   August                 0             0         0              0          0
                   Sept                   0             0         3              0          3
FY 2001 Total                             0             0         4              4          8
* H-2A is no longer eligible for Premium Processing (effective June 15, 2001).




                                         - 37 -
                                                                   ALL
                         CSC            NSC      TSC     VSC      CTRS
H-2B            June         1              13      20      17        51
                July         1              19      17      28        65
                August       4              37      47      51       139
                Sept        22              79      51      72       224
FY 2001 Total               28             148     135     168       479
                Oct         14             132      82      29       257
                Nov          4              87      50      33       174
                Dec         11              72      43      35       161
                Jan         10             141      93     108       352
                Feb         15             160     165     268       608
                Mar         19             283     162     307       771
                Apr         13             269     128     292       702
                May          8             207      89     258       562
                June         6             108      70     111       295
                July         9              77      57      72       215
                August      18              79      57      57       211
                Sept        41              87      76      57       261
FY 2002 Total              168           1,702   1,072   1,627     4,569

                                                                   ALL
                         CSC            NSC      TSC     VSC      CTRS
H-3             June         13              4       2       14       33
                July         29              3      15       21       68
                August       30              9      25       19       83
                Sept         11              3      16        7       37
FY 2001 Total                83             19      58       61      221
                Oct          21              8      13        7       49
                Nov          15              8      26       18       67
                Dec          20             10      13       37       80
                Jan          55              9      14       20       98
                Feb          11              5      18       10       44
                Mar          21              7      27       25       80
                April        16              6      29       16       67
                May          27             11      15       38       91
                June         35             14      20       32      101
                July         26              8      24       29       87
                August       25             10      16       35       86
                Sept         19             10      10       22       61
FY 2002 Total              291            106      225     289       911
                         CSC            NSC      TSC     VSC       ALL

                               - 38 -
                                                                 CTRS
L-1             June       226            100     250     230       806
                July       275            177     368     345     1,165
                August     304            199     431     437     1,371
                Sept       255            140     354     317     1,066
FY 2001 Total            1,060            616   1,403   1,329     4,408
                Oct        303            167     518     427     1,415
                Nov        239            171     550     390     1,350
                Dec        278            210     525     392     1,405
                Jan        261            201     504     463     1,429
                Feb        268            199     438     440     1,345
                Mar        254            219     520     487     1,480
                April      320            201     609     414     1,544
                May        324            215     736     557     1,832
                June       297            218     722     503     1,740
                July       323            249     730     579     1,881
                August     315            233     732     558     1,838
                Sept       261            214     647     481     1,603
FY 2002 Total            3,443          2,497   7,231   5,691    18,862

                                                                  ALL
                         CSC            NSC     TSC     VSC      CTRS
O               June        88             39      47      164      338
                July        89             52      53      229      423
                August     117             53      72      201      443
                Sept        99             46      59      207      411
FY 2001 Total              393            190     231      801    1,615
                Oct        154             39      50      179      422
                Nov        105             59      63      160      387
                Dec         99             31      69      161      360
                Jan         92             26      46      162      326
                Feb        110             26      45      182      363
                Mar        107             33      68      180      388
                April      119             38      86      172      415
                May        112             61     107      256      536
                June        91             65     122      286      564
                July       129             52     112      380      673
                August     121             66      84      357      628
                Sept       141             50      68      314      573
FY 2002 Total            1,380            546     920    2,789    5,635
                                                                  ALL
                         CSC            NSC     TSC     VSC      CTRS

                               - 39 -
P               June         0             46        9        115        170
                July         0            108       14        166        288
                August      52            336       30        192        610
                Sept        47            108       24        137        316
FY 2001 Total               99            598       77        610      1,384
                Oct         56             60       21        176        313
                Nov         35             47       47        117        246
                Dec         53            119       49        135        356
                Jan         42             99       59         20        220
                Feb         47             54       81        162        344
                Mar         42             79       81        198        400
                April       80             51      125        216        472
                May         60             73       73        216        422
                June        43             84       56        200        383
                July        59            198       61        225        543
                August      56            193       76        251        576
                Sept        60             77       87        234        458
FY 2002 Total              633          1,134      816      2,150      4,733

                                                                        ALL
                         CSC            NSC       TSC       VSC        CTRS
Q               June            0             0      1             1   2
                July            2             0      0             2   4
                August          2             3      1             0   6
                Sept            3             1      1             4   9
FY 2001 Total                   7             4      3             7  21
                Oct             0             0      0             1   1
                Nov             0             0      2             1   3
                Dec             0             0      0             1   1
                Jan             0             0      0             2   2
                Feb             1             0      1             1   3
                Mar             0             1      0             0   1
                April           0             0      1             0   1
                May             0             0      1             9  10
                June            0             0      2             0   2
                July            0             0      2            29  31
                August          0             4      8            23  35
                Sept            1             4      6             1  12
FY 2002 Total                   2             9     23            68 102
                                                                   ALL
                         CSC            NSC       TSC       VSC   CTRS
R               June            0             0         0       1      1

                               - 40 -
                July         0                 0      0          0         0
                August      18                 6      2          9        35
                Sept        17                 3      7          4        31
FY 2001 Total               35                 9      9         14        67
                Oct         22                 9     19         11        61
                Nov         21                 5     13         12        51
                Dec         19                 2      6          5        32
                Jan         24                 6      7         14        51
                Feb         15                 4     10         12        41
                Mar         10                 4      1         15        30
                April       25                 7     24         15        71
                May         17                11     20         17        65
                June        23                 8     30         16        77
                July        26                 7     47         24       104
                August      34                11     45         24       114
                Sept        18                15     23         20        76
FY 2002 Total              254                89    245        185       773

                                                                        ALL
                         CSC            NSC        TSC       VSC       CTRS
TN              June            0           0            0         0    0
                July            0          11            0         0   11
                August          0          56            0         0   56
                Sept            0          37            0         0   37
FY 2001 Total                   0         104            0         0  104
                Oct             0          63            0         0   63
                Nov             0          50            0         0   50
                Dec             0          72            0         0   72
                Jan             0          47            0         0   47
                Feb             2          59            0         0   61
                Mar             0          82            0         0   82
                April           1          92            0         0   93
                May             0          75            0         0   75
                June            0          73            0         0   73
                July            0          84            0         0   84
                August          0          88            0         0   88
                Sept            0          65            0         0   65
FY 2002 Total                   3         850            0         0  853
                                                                    ALL
                         CSC            NSC        TSC       VSC   CTRS
E               June           32              0      18         1     51
                July           24              3      19         0     46

                               - 41 -
                 August              54        0    28   0      82
                 Sept                51        4    31   0      86
FY 2001 Total                       161        7    96   1     265
                 Oct                 57        0    53   0     110
                 Nov                 58        0    62   0     120
                 Dec                 68        0    54   0     122
                 Jan                 77        1    83   0     161
                 Feb                 67        0    53   0     120
                 Mar                 60        0    70   1     131
                 April               92        0    70   0     162
                 May                 90        0    76   0     166
                 June                75        0    86   0     161
                 July               110        0    76   0     186
                 August              89        0    75   0     164
                 Sept                84        0     0   0      84
FY 2002 Total                       927        1   758   1   1,687
  Source: INS, Information Services Division




                                      - 42 -
                                                        APPENDIX III

   PREMIUM PROCESSING RECEIPTS BY SERVICE CENTER

                                                               All
Month                    CSC    NSC           TSC     VSC    Centers
June                        360    202           353     547    1,462
July                        640    589           657     914    2,800
August                    2,447  1,851         2,383   3,641   10,322
Sept                      1,819  1,122         1,593   2,264    6,798
FY 2001 Total            5,266  3,764          4,986  7,366   21,382
Oct                       2,219  1,356         1,941   2,719    8,235
Nov                       1,896  1,243         1,939   2,410    7,488
Dec                       1,884  1,368         2,008   2,394    7,654
Jan                       1,881  1,286         1,957   2,548    7,672
Feb                       1,666  1,219         1,999   2,694    7,578
Mar                       1,644  1,431         2,269   2,976    8,320
April                     2,127  1,482         2,527   3,034    9,170
May                       2,293  1,803         2,807   4,334   11,237
June                      2,197  1,762         3,039   4,289   11,287
July                      2,676  2,158         3,609   4,699   13,142
August                    2,660  2,040         3,208   4,606   12,514
Sept                      2,332  1,700         2,643   4,062   10,737
FY 2002 Total           25,475 18,848         29,946 40,765 115,034
PROGRAM TOTAL           30,741 22,612         34,932 48,131 136,416
 Source: INS, Information Services Division




                                  - 43 -
                                                APPENDIX IV

 SERVICE CENTER AREAS OF RESPONSIBILITY




          INS Service Center Jurisdictions




Nebraska Service Center, Lincoln, NE

California Service Center, Laguna Niguel, CA.
Region also includes Territory of Guam

Texas Service Center, Dallas, TX

Vermont Service Center, St. Albans, VT. Region also includes
Puerto Rico, and the U.S. Virgin Islands




                      - 44 -
                                                                    APPENDIX V

                          IBIS POLICY TIMELINE

1989                IBIS was established as a multi-agency database of lookout
                    information to improve border enforcement and facilitate
                    inspections of individuals applying for admission to the U.S. at
                    ports of entry and pre-inspection facilities.


1999                The VSC and the TSC experiment with IBIS software and
                    adjudications on a limited basis.


July 31, 2001       The INS Office of Programs issues a memorandum to Office of
                    Field Operations formally establishing the INS’s policy
                    concerning the usage of IBIS. Data in IBIS is “Law
                    Enforcement Sensitive.” Access to IBIS data is granted on a
                    need-to-know basis. All IBIS users must be certified through
                    an online security certification test and must be re-certified
                    every two years.


August 6, 2001      The July 31 memorandum is forwarded to all Regional Directors
                    (but not Service Center Directors).

August 21, 2001     Installation of IBIS hardware and software is completed at the
                    service centers. INS Office of Programs informs the Office of
                    Field Operations that IBIS checks are mandated for Forms I-
                    485, I-90, I-821, and I-765, filed by asylum seekers.
                    Development of a national IBIS Standard Operating Procedure
                    (SOP) manual is initiated. Once complete, the SOP will provide
                    guidance for service centers and field offices on the utilization
                    of IBIS checks in the adjudication process.


September 5, 2001   The INS Office of Field Operations issues a transmittal notice to
                    the Regional Directors advising that IBIS checks could begin on
                    the forms listed in the August 21 memo. The notice states that
                    IBIS checks are to be conducted on the applicant or principal
                    beneficiary and the names of any spouse and children who may
                    derive status through their relationship to that applicant or
                    principal beneficiary. The automated IBIS checks will formally
                    replace the Service Lookout Book checks previously made.




                                    - 45 -
September 28, 2001   The ISD issues a memorandum stating that the utilization of
                     the NCIC database is authorized only for law enforcement
                     purposes, including active criminal cases, custody cases, and
                     targets of investigation.

November 15, 2001    The September 5 and August 21 memos (above) are forwarded
                     to all Service Center Directors. The service centers are
                     directed to perform IBIS checks on the same petitions and
                     applications as described in the August 21, 2001, guidance.

December 6, 2001     The INS Office of Programs issues a request to the Office of
                     General Counsel for an expedited resolution of legal questions
                     on the use of IBIS in processing applications and petitions for
                     Immigration benefits. The stated issues included the use of
                     IBIS information in processing benefit applications and
                     petitions; the use of third party information in the course of
                     making a determination on an application for immigration
                     benefits; forwarding cases with IBIS hits to Investigations for
                     action; and sharing IBIS hits with another Law Enforcement
                     agency, without a biometrics match.

January 28, 2002     The Adjudicator’s Field Manual is amended to require IBIS
                     checks on all applications and petitions.

March 4, 2002        A memorandum from the Acting Assistant Attorney General for
                     Administration bans non-U.S. citizens from accessing
                     Department of Justice Information Technology systems unless
                     certain waivers are issued.

March 18, 2002       A memorandum regarding Enhanced Processing Instructions
                     from the INS Office of Field Operations is distributed to the
                     Regional Directors and the ISD. The memorandum is to
                     reinforce certain required procedures when processing
                     applications for benefits. All applications for change of
                     nonimmigrant status (i.e., Forms I-539, I-129) must be
                     checked against the NIIS immediately before a final decision is
                     rendered on the application. Note: Now the Forms I-129 are
                     to be NIIS checked.




                                     - 46 -
April 1, 2002   Directives are issued regarding IBIS checks at air and sea ports
                of entry.
                A memorandum is sent to Executive Associate Commissioner,
                Office of Field Operations, from the Director of the Central
                Region regarding systemic vulnerabilities in the IBIS check
                process. Issues include software glitches that result in some
                petitions and applications not being checked in IBIS, and the
                lack of interconnectivity among various computer systems used
                by the INS, including IBIS.


April 3, 2002   A memorandum from the Office of Field of Operations states
                that IBIS queries will continue to be conducted for all
                applicants for admission at sea ports of entry when manifests
                are received in advance of arrival and at sea ports of entry at
                those locations with dedicated Federal Inspection Sites (airport
                type facilities).


July 2, 2002    An IBIS guidance memorandum is issued by the Office of Field
                Operations to all Regional Directors; Deputy Executive
                Associate Commissioner, Immigration Services Division; and
                the Acting Director, Office of International Affairs. The
                memorandum supplements previously issued memoranda
                (listed therein) and provides procedural details for conducting
                IBIS checks and for resolving subsequent hits.




                                - 47 -
                                                               APPENDIX VI

SUMMARY OF SERVICE CENTER OPERATIONS TEAM (SCOT) SUPPORT
                   SERVICES CONTRACT

      The purpose of the Service Center Operations Team (SCOT) contract is
to obtain comprehensive, cost-effective on-site data entry and other records
processing and related support services for the INS in its four service
centers, and in any additional locations INS may designate in writing.

      In the past, aliens eligible to apply for benefits under the Immigration
and Nationality Laws would submit their applications and petitions to one of
86 INS District Offices and Suboffices throughout the United States. To
introduce greater efficiencies and improved productivity, the INS established
four service centers and initiated a Direct Mail Program in 1986. Under the
program, aliens seeking benefits under the Immigration and Nationality Act
(Act) are to mail their applications and petitions to a service center rather
than to a District or Suboffice. The four INS service centers currently
supporting the Direct Mail Program are:

      •    California Service Center (CSC), Laguna Niguel, California

      •    Texas Service Center (TSC), Dallas, Texas

      •    Nebraska Service Center (NSC), Lincoln, Nebraska

      •    Vermont Service Center (VSC), St. Albans, Vermont

      The Direct Mail Program is currently in its third phase of
implementation. Phases I and II involved the mailing of a limited number of
applications and petitions to the service centers for processing. In Phase III,
all applications and petitions are to be mailed directly to the respective
service centers.

      The scope of work performed under the SCOT contract includes record
project management and processing services. These support services
consist of, but are not limited to, the following task areas:

      1.   Mailroom operations

      2.   File assembly

      3.   Data collection, capture, and scanning

      4.   Document preparation

                                   - 48 -
      5.   Fee collection and processing

      6.   Fileroom operations

      7.   Word processing

      8.   Quality control, including continual process evaluation and
           improvement

      9.   Business Process Reengineering, including requirements analysis,
           system design, development, and implementation

      10. Other records management functions, processing, and services as
          designated in any media or storage modality (electronic, paper,
          optical storage, etc.) as specified.

      The objective of the contract is to provide cost-effective, timely,
accurate, and comprehensive on-site data entry and other records
management services at INS service centers or other specified locations in a
manner consistent with effective adjudication, financial responsibility, and
customer service. The INS is the customer of services under this contract.
Other than law enforcement activities, the applications processed under this
contract are the most highly visible products and aspects of INS’s
operations.

      The contractor (SCOT) provides all labor, supervision, and training
necessary for the performance of the work specified in its Statement of
Work. The contractor also provides transportation services (e.g., courier
services) for mail between the post offices and the four INS service centers,
and for mail and files internally within the service centers located in multiple
buildings.

       The INS specified performance standards in each task area related to
the processes that the INS believes are critical to successful performance of
the Direct Mail Program. The INS reserves the right to add, delete, and
revise performance requirements for calls after issuing the initial call. These
requirements and their associated performance standards define the work to
be performed. The INS established these performance requirements and
associated standards after careful analysis of current operations based on
historical performance against similar established standards.

      The INS intends to monitor performance closely, and requires the
contractor to do the same. The INS will measure performance against these
standards for each government fiscal quarter.

                                    - 49 -
       The INS’s contract with SCOT became effective in January 2001, and
full performance started July 1, 2001. The contract has a base year and four
option years. The table below illustrates some general information obtained
during our audit.


                   INS/SCOT Service Center Contract
      Service                   Contract           Invoice           Workload
      Center     FTEs (a)       Price (a)         Costs (b)         Activity (b)
      CSC            495.5        $ 166.4 m          $ 25.6 m            20.8 m

      NSC            364.5          128.5 m            16.6 m            16.7 m

      TSC            386.5          138.0 m            16.4 m            14.7 m

      VSC            427.5          144.3 m            18.4 m            12.4 m

      Totals       1674.0        $ 577.2 m          $ 77.0 m             64.6 m
        (a).     per Contract Modification No. 7, dated 07/02/02.
        (b).     per Base Year data, through 06/17/02.




                                    - 50 -
                                                                                            APPENDIX VII

               SERVICE CENTER PROCESS FOR IBIS RECORD CHECKS

                    Record is                          IBIS Check conducted
 Petition is        noted to                           for a receipt, transfer,
adjudicated       indicate IBIS                       reopen, or data change
                   completion

                                    No IBIS Match                              IBIS match is identified


                                                                                                 All IBIS hits related to
                                                                                                 terrorism or threats to
                                                                Petition is
                                                                                                  national security are
                                                              forwarded to
                                                                                               forwarded to the National
                                                             service center
                                                                                                 Security Unit and INS
                                                               Triage Unit
                                                                                                 Headquarters, ISD for
                                                                                                       processing.




                                        No impact
                                      on adjudication
                  If necessary,                              Triage Unit
                local authorities                           determines
                                                           whether hit will
                 are notified of
                                                               impact
                wants/warrants
                                                            adjudication



                                                                          Hit may impact adjudication



                                                        Aggravated felons and
                                                          NCIC matches are
                                                           forwarded to the
                                                         service center’s EOD
                                                        for further evaluation.
                                                                 Other
                                                        petitions are forwarded
                                                          to EOD as deemed
                                                               necessary




                                                               Petition is
                                                              reviewed to
                                                               determine
                                                             severity of hit
                          Petition is ready
                          for adjudication
                                                                                    Uncertainty
                                                                                     remains



                                                    - 51 -
                             Petition is sent
                                  to INS
                              Headquarters




Petition is safe for
   adjudication
                               IBIS Policy
                               Coordinator
                             reviews petition




        Beneficiary is                          Beneficiary is
       residing outside                         residing in the
           the U.S.                             U.S.
                            Possible threat
                               remains

                                            Petition is placed in
     Petition is adjudicated,                     abeyance
     and the Department of
     State is notified that the
     beneficiary is
     inadmissible to the U.S.




                       - 52 -
         APPENDIX VIII




- 53 -
                                                               APPENDIX IX

                      ADJUDICATORS FIELD MANUAL

10.3 General Adjudication Procedures [AD01-15]

The following steps apply to all cases processed by the adjudications unit
within a service center. Depending upon local procedures, these steps may
be handled by one or more designated officers.

  a.   Case Review

       Each case must be thoroughly reviewed to determine jurisdiction,
       presence of required supporting documentation, existence of relating
       files and basic statutory eligibility.

  b.   IBIS Checks.

       (1) Requirements. An application or petition shall not be approved or
           revalidated until the name of the applicant or principal
           beneficiary, and the names of any spouse and children who may
           derive status through their relationship to that applicant or
           principal beneficiary, have been checked against the Interagency
           Border Information System (IBIS). The application/petition is to
           be notated "IBIS referral" when the check results in any of the
           adverse information which is identified below. When the IBIS
           check does not result in adverse information, the file is to be
           noted -"IBIS ok" and the date. (For instructions regarding
           annotation of the application/petition see chapter 31 of the
           Inspector's Field Manual for more detailed information on IBIS.)

       (2) Adverse Information. Adverse information relating to criminal
           activity or threats to national security must be fully addressed by
           the officer before any final decision may be made on such cases.
           Should an adjudicator determine that the derogatory information
           does not preclude approval of the application/petition, the
           decision must be supported by a memo to the file signed by the
           supervisory adjudications officer, and must state the basis for the
           decision. The derogatory information to be addressed will be
           those IBIS hits that show a conviction for an aggravated felony or
           other crime(s) which would render the alien inadmissible, prior
           deports, warrants, arrests, or threats to national security. If the
           reason for a warrant or arrest is not stated in the initial IBIS
           response, that issue must be resolved before the case can move
           forward to final adjudication.

                                   - 54 -
         Questions regarding this memorandum are to be addressed to
         Frances A. Murphy, Assistant Director, Office of Adjudications,
         (202) 514-3978, or by e-mail.

     (3) Other Service Records. A check of Headquarters records may
         also be made with respect to the applicant, petitioner or
         beneficiary, but only when it is believed such a check would
         produce pertinent information.

         See Chapter 3(B)(1) of the Records Operations Handbook for
         information on checking other Service records.

         If a Headquarters record check was made in addition to a NAILS
         check, a stamp bearing the legend "NAILS-HQREC CHECKED"
         shall be placed on the petition, and initialed by the adjudicator;
         any response returned with notations showing "no record "or" no
         file exists" shall then be destroyed.

         Any further action which may be required, short of approval of the
         petition, shall not be delayed while the request for the
         Headquarters record check is pending.

c.   Adjudication. The adjudicator must carefully examine the application
     form and all supporting documents. The examination should address
     (but not be limited to) the following questions:

     •   Is the form complete and signed?
     •   Is the applicant or petitioner represented by counsel with Form G-
         28 on file?
     •   Are there any responses which require further explanation or
         indicate there may be a need for additional documentation?
     •   Are all necessary supporting documents present and translated
         into English, if necessary?
     •   Is the beneficiary statutorily eligible for the benefit sought?
     •   Are all supporting documents authentic and unaltered?
     •   Is there any reason to suspect fraud?
     •   Are there any legal precedent decisions or court orders relevant to
         the case?
     •   Are there any ancillary applications which should be filed by the
         applicant (e.g., a waiver application, adjustment application,
         advance parole request, or employment authorization request)?

d.   The Burden of Proof. Bear in mind that the burden of proof in
     establishing eligibility for an immigration benefit always falls solely on

                                  - 55 -
     the petitioner or applicant. The Service need not prove ineligibility.
     Each application and petition form includes specific evidence
     requirements necessary for approval. When an applicant or
     petitioner can establish that certain primary evidence is unavailable,
     secondary evidence, also in specific forms, may be provided.
     Experienced officers become familiar with a wide range of documents
     submitted as evidence. Sound judgment is required to determine
     which forms of primary and secondary evidence should be accepted
     in individual cases. In addition to reliance on past experience, there
     are sources of information for verifying information discussed in
     chapter 14. [See Matter of Brantigan, 11 I&N Dec. 453 (BIA 1966).]

     Strict rules of evidence used in criminal proceedings do not apply in
     administrative proceedings. Usually, any oral or documentary
     evidence may be used in visa petition proceedings. Copies of public
     documents, certified by the person having custody of the originals,
     are generally admissible. [See also Chapter 11 of this manual for a
     discussion of evidence.]

e.   Inspection of Evidence. The adjudicator must afford a petitioner or
     applicant an opportunity to inspect and rebut adverse evidence used
     in making a decision. Prior to denial of any application or petition
     based on such evidence, the Service routinely issues a "notice of
     intent" to deny, by letter, explaining the nature of the adverse
     information. The applicant or petitioner may choose to respond in
     writing or may ask to inspect the record of proceedings prior to
     submission of a rebuttal. A notice of intent must specify the date by
     which a response must be received and instruct the applicant or
     petitioner that a failure to respond will result in a denial. [See 8
     CFR103.2(b)(16).]

f.   Decision: Approval. If a case is ready for approval, the adjudicator
     must stamp the action block with his or her approval stamp and
     approved “security” ink. In some cases, the officer’s signature is also
     required. Depending upon local procedures, a work sheet for clerical
     action may be completed, or the adjudicator may update the CLAIMS
     system to initiate generation of an approval notice to the applicant or
     petitioner and the attorney of record, if any. In some instances, the
     adjudicator may manually complete processing. The adjudicator
     must then forward the case file for disposition: to the file room, the
     National Visa Center or consular post, or another Service office. In
     emergent cases, the petitioner may request that a cable be sent to
     the consular post. The cable formats for such notifications are
     included as Appendix 10-4. Each service center has a quality review


                                 - 56 -
     process which may review some segment of completed cases for
     proper adjudication.

g.   Decision: Denial. If a case is to be denied, the adjudicator must so
     note the action block and prepare the written denial notice. Denials
     may consist mainly of "boilerplate" paragraphs explaining the legal
     basis for the adverse decision or they may be entirely original. In all
     cases, the specific facts of the individual case must be explained in
     the decision. If a denial is based on precedent decisions, those
     decisions should be properly cited in the body of the denial notice.
     The applicant or petitioner (or representative), must be advised of
     the action and provided with information concerning his or her right
     of appeal. Depending upon local procedures, denied cases may be
     held in suspense until an appeal is filed or the appeal period lapses,
     or the case file may be sent to another office for follow- up action.
     Denial decisions are normally sent to a supervisory officer for review
     and signature prior to mailing. Service of a decision is ordinarily
     accomplished by routine service as prescribed in 8 CFR 103.5a.
     Personal service is required only when an adverse action is being
     initiated by the Service, such as a recission or revocation.




                                 - 57 -
         APPENDIX X




- 58 -
- 59 -
         APPENDIX XI




- 60 -
         APPENDIX XII




- 61 -
- 62 -
- 63 -
                               APPENDIX XIII

INS RESPONSE TO THE DRAFT REPORT




             - 64 -
- 65 -
- 66 -
- 67 -
- 68 -
- 69 -
- 70 -
- 71 -
- 72 -
- 73 -
                                                             APPENDIX XIV

       OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION,
                   ANALYSIS AND SUMMARY OF
            ACTIONS NECESSARY TO CLOSE THE REPORT

      We have received and reviewed the INS response to our draft audit
report. Where appropriate, we made changes to the final report based on
the INS response.

     In the transmittal letter for the INS response, the Executive Associate
Commissioner, Office of Field Operations, makes some assertions to which
we wish to respond.

      First, the Executive Associate Commissioner asserts, “Contrary to the
OIG’s conclusion, the INS believes that the time required to adjudicate
routine applications and petitions has not been adversely affected by the
[Premium Processing program].”

      OIG Response: In our discussion of the backlogs of routine
applications and petitions, we described several factors that, in the view of
INS officials, contributed to the increases in backlogs. We also stated
explicitly that “when situations occur that disrupt general processing times,
those times are likely to be further exacerbated by the premium service. As
has occurred with the implementation of IBIS checks, more petitioners will
choose the premium service if general processing times are prolonged.
Because Premium Processing receives priority, backlogs for routine cases
may continue to grow. In this way, a program that was intended to reduce
backlogs may actually have the effect of increasing backlogs for routine
applications.”

       We based our analysis on data provided to us by INS during the audit.
As shown in the table on page 18, the number of pending applications and
petitions has increased notably at each of the service centers and nationally.
At the end of FY 2000, there were 1,876,391 pending applications and
petitions at the four service centers; by the end of FY 2002, that figure had
grown to 3,249,226, an increase of 73 percent. We reported the INS’s
alternative explanations but nonetheless concluded that they do not
sufficiently explain such a dramatic growth in the backlog for routine
applications. We also note that the INS has not provided data to support
these alternative explanations. Finally, the pressure on the INS to take
resources from routine adjudications when Premium Processing receipts
increase is great, and we believe that diversion contributed to the backlog.



                                   - 74 -
       Second, the Executive Associate Commissioner states “The Office of
the Inspector General (OIG) in its recent report …focused to a large extent
on the INS’ use of the Interagency Border Inspection System (IBIS), one
critical though relatively minor aspect of the overall [Premium Processing
program].”

       OIG Response: We cannot agree with the confusing description of
IBIS as both “critical” and “minor.” The INS made the judgment that the
screening of applicants and petitioners through IBIS is of vital importance to
national security. Because the service centers failed to implement IBIS
checks when directed to do so, some 387,596 total applications and
petitions, including 11,830 premium cases, were processed without IBIS
checks. The failure of the INS service centers to conform to INS
Headquarters policy directives that they begin IBIS screening had potential
consequences that could be quite serious.

      The INS response to the draft report also addresses each of our five
recommendations. Our comments on the INS responses are given below,
together with status of recommendations and actions needed to close the
report:

Recommendation Number:

   1. The INS concurs with our recommendation to strengthen internal
      communication to ensure that affected field offices receive advance
      notice of policy changes that will affect adjudication practices.

      Resolved. This recommendation can be closed when we receive the
      INS policy requiring Headquarters to provide to all service centers and
      district offices advance notice of relevant policy and/or procedural
      changes that affect the adjudication process.

   2. The INS concurs in part with our recommendation to ensure that
      excess revenues, not used for adjudication processing and fraud
      investigation, are utilized for backlog reduction efforts. The INS states
      that it “agrees with the OIG that it is unable to directly link the
      expenditure of Immigration Examination Fee Account funds to the
      specific application, petition or premium fee revenue source. Fee
      revenue is, however, separately tracked for purposes of statistical
      analyses and accounting. When funds are allocated to the INS
      operating units to support day-to-day operations, the specific source of
      the revenue provided is not tracked. All fee revenues once deposited
      are consolidated within the Exams Fee Account, and their original link
      to a specific application or petition is lost. The only way the INS could
      specifically tie the premium process revenue to the program

                                   - 75 -
  expenditure would be for Congress to establish a new fee account and
  mandate the deposit of premium fees into such account…. Although
  unable to specifically show through its financial systems that program
  expenditures for backlog reduction are being funded by the premium
  fee revenue, the INS does believe that through its specific tracking of
  premium fee revenues, its use of an annual Operating Plan, and its
  yearly workload and staffing updates that it is able to ensure that the
  appropriate portion of the premium processing revenues are being
  used to reduce INS’ adjudications backlogs.”

  Our intent was not to compel the INS to change its existing accounting
  system, but to ensure that excess Premium Processing revenues are
  expended for infrastructure improvements and backlog reduction. As
  we reported on page 17, based on our review of the INS accounts, “we
  could not determine whether any of the additional premium service
  revenues were actually used to fund the infrastructure improvements
  and backlog reduction efforts.”

  In its response, the INS states it can “ensure that the appropriate
  portion of the premium processing revenues are being used to reduce
  INS’ adjudications backlogs” through “specific tracking of premium fee
  revenues, its use of an annual Operating Plan, and its yearly workload
  and staffing updates.” However, the INS does not state how those
  devices will ensure the proper allocation of premium fee revenues, why
  the INS has not yet used those means, or how the INS might use them
  in the future. The need remains for the INS to develop policy or
  procedures to ensure that Premium Processing revenues are expended
  in keeping with the budget approved annually by Congress. If the INS
  believes it cannot develop such policy or procedure without creating a
  separate account for Premium Processing revenues, the INS should
  seek Congressional authorization for such an account.

  Unresolved. This recommendation can be closed when we receive
  documentation showing the INS has implemented a policy or
  procedures to ensure that Premium Processing program revenues that
  are not used for adjudication processing and fraud investigation, are
  utilized only for the backlog reduction efforts.

3. The INS concurs in part with our recommendation to accumulate
   statistical data for Premium Processing by adding a separate category
   to the INS work measurement databases. “The INS agrees that it
   should strive to improve the integrity of the data collected to manage
   the Premium Processing Program. INS has made provisions to track
   premium processing within the Performance Analysis System (PAS)
   beginning in FY 2004. The INS does not agree, however, that PAS is

                               - 76 -
  the best mechanism to implement this improvement. As a secondary
  system dependent on ‘the various reporting systems from the
  individual service centers,’ PAS does not provide a consistent
  methodology, or accurate, standardized reporting and program
  analyses called for by the OIG. The ISD is developing a new primary
  system that will incorporate the automatic collection of performance
  management data. We expect this initiative to eliminate the need for
  secondary collection systems like the PAS.”

  Based on our work on this audit and others, we recognize that PAS has
  shortcomings. Our experience in other audits involving the INS has
  shown that initiatives such as the one to develop “a new primary
  system that will incorporate the automatic collection of performance
  management data” take considerable time and money to implement
  and often result in less than satisfactory results. However, the fact
  remains that INS management needs current, complete, and accurate
  data to manage each of its programs, including Premium Processing.

  Resolved. This recommendation can be closed when we receive
  documentation showing that the INS has modified the work
  measurement databases to accumulate Premium Processing statistical
  data. Based on the INS response, we understand that Premium
  Processing data will be incorporated in the Performance Analysis
  System in FY 2004. Later, the data may be collected in a successor
  system.

4. The INS concurs in part with our recommendation to conduct a time
   and motion study to determine appropriate costs for processing
   premium cases in order to ensure that the service centers have
   adequate staff and resources. Its response states, “The INS
   acknowledges that additional customer service features have been
   added to the adjudication process to support the [Premium Processing
   program]. However, we do not recognize the need for a formal
   independent study isolating the [Premium Processing program] to
   determine unit costs per adjudication….The INS employs an activity
   based cost (ABC) methodology to determine the cost of immigration
   adjudications and naturalization services for which we charge fees….
   When the INS next conducts a biennial fee study in FY 2005, it will in
   any event consider the cost implications of providing enhanced
   customer service activities, such as dedicated phone lines, e-mail
   addresses and more direct communications with customers by INS
   personnel to applicants filing for premium service. Should the fee
   study indicate a different cost for processing premium service cases
   vs. normal applications, the INS would advise the Congress of any
   adjustment needed through legislation…. In this vein, the INS

                               - 77 -
   conducts a comprehensive workload and staffing analysis twice per
   year to determine necessary staff and resources and distribution. INS
   believes that the ISD has assigned adequate staff and other resources
   to meet the needs of the [Premium Processing program] as well as
   other adjudications foci, and that a formal study is not required.”

   We believe the INS response does not undermine the need for
   implementing our recommendation. Premium Processing includes a
   number of steps that are specific to that program. The fact that the
   INS uses an activity based cost methodology to determine the cost of
   adjudications further supports the need for a separate analysis of
   premium applications and petitions. As stated in our report, we
   monitored the adjudication process for premium petitions and
   observed certain distinguishing factors. For example, “Premium
   Processing petitions are adjudicated by the most experienced and
   skilled workers, and are reviewed much more frequently and
   thoroughly than routine cases.” Surely, the reliance on more
   experienced, and presumably higher paid, adjudicators and the
   frequent supervisory review imply at least the possibility of greater
   cost than that of routine adjudications. Similarly, the telephone and
   e-mail contacts with applicants and petitioners are added costs
   associated with Premium Processing, but not typically with routine
   adjudications. Finally, we noted that Premium Processing cases
   represent a steadily increasing portion of total receipts of the Form
   I-129, a phenomenon that is likely to increase pressures on the
   existing resources at the service centers. In our judgment, because
   the INS has no regularized workload measurement mechanisms and
   will not have one until sometime in FY 2004 (see Recommendation 3),
   the INS should conduct a study to determine the unit costs for
   premium cases and to ensure the assignment of adequate resources at
   the service centers.

   Resolved. This recommendation can be closed when we receive
   documentation showing the INS has determined the appropriate unit
   cost for processing premium service cases in addition to the cost to
   process a routine I-129 application ($130).

5. “The INS does not concur that a formal analysis of the $1,000
   [Premium Processing program] fee is necessary to ensure revenues
   are allocated as mandated…. It is the special appropriation code that
   allows the INS to separately track and record the premium processing
   revenue from all other adjudication and naturalization application and
   petition revenues that are received…. This is reinforced insofar as the
   INS Operating Plan includes documentation of approved program and
   project funding. For all these reasons, the INS does not believe that

                                - 78 -
     conducting a formal analysis of the premium fee is mandated….
     Alternatively, the INS proposes to modify its Operating Plan to isolate
     through a specific column, the planned program and project spending
     associated with the premium fee revenues approved by Congress in its
     annual appropriations bill…. INS maintains that as long as these funds
     are used to deliver the specific services promised to Congress in
     exchange for the resources, the agency’s legal obligation is satisfied.”

     The $1,000 fee was determined without the benefit of any analysis; in
     fact, some INS officials told us the figure was reached arbitrarily. In
     our judgment, a fee analysis should have been conducted prior to
     implementation of Premium Processing to ensure that the INS was
     maximizing the revenue potential while taking into account the
     possible effects on various business sectors and sizes.

     In addition, the INS response does not address the main point of our
     recommendation. On page 25, our report describes the current
     allocation of the $1,000 premium fee: 22 percent to adjudication
     processing, 9 percent to fraud investigation, 25 percent to backlog
     reduction and processing, and 44 percent to general infrastructure
     improvements. The INS needs to conduct a formal study to confirm
     the appropriateness of that allocation or to establish the basis for a
     different allocation.

     Unresolved. This recommendation can be closed when we receive
     documentation showing the INS has conducted an analysis of the
     $1,000 Premium Processing fee to ensure the appropriate amounts of
     the Premium Processing revenues are being allocated for applications
     processing, fraud investigations, infrastructure improvements, and
     backlog reduction.

      In addition to responding to our recommendations, the INS offered
other comments on the report, to which we wish to reply.

Audit Findings

     •   The INS states, “the draft audit report does not explicitly state
         whether INS is achieving the goal of processing Premium Processing
         petitions in 15 days or less.”

         OIG Response: This is incorrect. The lead paragraph for Finding II
         begins, “although the INS has generally met the requirement of
         processing premium applications within 15 days….” We also added
         this statement to the Executive Summary of the final report for
         further clarification.

                                  - 79 -
    In addition, it should be noted that the 15-day processing of
    Premium Processing applications and petitions is not the sole
    objective of the program. Premium Processing was also established
    to provide revenues to hire additional staff and to improve the INS
    infrastructure so as to reduce the adjudications backlog of the INS.
    In our report, we have expressed some doubts that the Premium
    Processing fees have had the desired effect on the overall
    adjudications backlog.

•   The INS states, “the Inspector General finds that the processing
    times for similar routine petitions have increased dramatically since
    implementation of the Premium Processing program. However, INS
    believes the Inspector General relied on an inappropriate
    measurement of processing time to reach this finding…. Rather,
    INS measures application processing time using official data derived
    from its Performance Analysis System.”

    OIG Response: In response to Recommendation 3, the INS said
    the Performance Analysis System “does not provide a consistent
    methodology, or accurate, standardized reporting and program
    analyses called for by the OIG.” By its own terms, the INS is on
    shaky ground when it “measures application processing time using
    official data derived from its Performance Analysis System.”

    In formulating Finding II, we used data provided to us by the INS,
    specifically processing times for routine Forms I-129. The data
    provided to us by the INS showed that the processing times for
    routine Forms I-129 increased from about 37 days to 112 days
    after implementation of the IBIS checks.

    In our report we took great care to describe the effect of Premium
    Processing on routine adjudications. This effect is a cumulative one
    that compounds the adverse consequences of other factors. We
    state in the report, “under ideal conditions the Premium Processing
    program should have little impact on the processing times for other
    visa types. However, when situations occur that disrupt general
    processing times, those times are likely to be further exacerbated
    by the premium service. As has occurred with the implementation
    of IBIS checks, more petitioners will choose the premium service if
    general processing times are prolonged.”

•   The INS states, “…the Inspector General finds that refunds of
    Premium Processing fees have increased eight-fold since
    implementation of the IBIS check procedures and suggests that this

                              - 80 -
        increase is attributable to the procedural change.        However,
        because the 13 cases refunded prior to the implementation of IBIS
        checks represented .02% of the volume, almost any increase after
        the initial overwhelming success of the program would appear
        large. The 116 refunds made after the implementation of IBIS
        represent .15% of the volume. Because the numbers are so small
        this change cannot be construed to be a statistically significant
        trend. It does highlight the high preparedness and training level at
        the inception of the program, however.”

        OIG Response: We specifically state in the report, “as a result of
        the increased time required to process routine applications, the
        service centers have reported sizeable increases in the number of
        premium service cases being filed.” The impact, therefore, on the
        Premium Processing Program is the filing of considerably more
        premium cases than anticipated by the INS. While it is true that
        the refunds due to failure to meet the 15-day requirement are still a
        very small percentage, it is important to recognize that the refunds
        were almost at zero prior to the implementation of the IBIS checks
        and have grown since the implementation of the IBIS checks.

Statement on Management Controls

    •   The INS states, “there were many stages of implementation of IBIS
        checks in the adjudication process. Full implementation of IBIS
        checks for all applications and petitions at service centers, while a
        useful step in the Country’s war on terrorism, was not a critical step
        in the use of IBIS by the INS. The Inspections Program has utilized
        the IBIS process for years and the Department of State (DOS) visa
        issuing process has also provided a check of databases during the
        screening process. Currently, the INS and DOS perform IBIS
        checks at visa application, port of entry application for admission,
        application submission, and adjudication of application (if more than
        35 days following submission). These multiple checks of the same
        individual provide many opportunities for the identification of
        problem individuals and are not hampered by failure of any
        individual check in the entire process.”

        OIG Response: On January 28, 2002, IBIS checks were
        mandated for all applications and petitions, including Form
        I-129 petitions. The failure of the service centers to conduct IBIS
        checks on 357,766 routine and 11,830 premium petitions until
        March 18, 2002 was a significant breakdown of management
        controls in a matter relating to national security. The INS cannot
        provide assurance that no other breakdowns in management

                                  - 81 -
    controls occurred throughout the other layers of IBIS checks.
    Consequently, we do not believe that the failure to implement IBIS
    checks in a timely manner was mitigated by the INS’s presumption
    that IBIS checks were supposed to be done by another agency
    (Department of State) and at other locations (ports of entry). INS
    Headquarters made the determination that IBIS checks should be
    performed on all applications adjudicated at service centers but
    these checks were not performed until more than two months after
    they were required.

•   The INS states, “it can be seen that since the inception of the
    premium processing program, as well as since the beginning of the
    latest backlog reduction plan in October 2001 most form types’
    backlogs have actually decreased while others have increased very
    slightly. Since the second quarter of 2002 most forms have
    experienced a very slight increase. This was during the period
    when IBIS, SEVIS, NSEERS, and the special alien registration
    programs were put into effect. At the end of FY 2002 the INS met
    its own backlog reduction goals for forms I-129, I-539, I-751, and
    N-600/643.”

    OIG Response: The data provided to us by the INS showed a
    steady and dramatic increase in the service-wide backlog for all
    petitions since the second quarter of 2002. While the INS describes
    reduction in the backlogs for four specific forms, we based our
    conclusion on the overall backlogs for all forms. As stated
    previously, the number of pending applications and petitions at the
    four service centers increased from 1,876,391 at the end of FY
    2000 to 3,249,226 at the end of FY 2002, an increase of 73
    percent.




                             - 82 -
